<html>
<title> - CLIMATE CHANGE: NATIONAL SECURITY THREATS</title>
<body><pre>[Senate Hearing 110-402]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 110-402

               CLIMATE CHANGE: NATIONAL SECURITY THREATS

=======================================================================

                                HEARING



                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE



                       ONE HUNDRED TENTH CONGRESS



                             FIRST SESSION



                               __________

                              MAY 9, 2007

                               __________



       Printed for the use of the Committee on Foreign Relations


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

















                     U.S. GOVERNMENT PRINTING OFFICE

42-725 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001

































                COMMITTEE ON FOREIGN RELATIONS          

           JOSEPH R. BIDEN, Jr., Delaware, Chairman          
CHRISTOPHER J. DODD, Connecticut     RICHARD G. LUGAR, Indiana
JOHN F. KERRY, Massachusetts         CHUCK HAGEL, Nebraska
RUSSELL D. FEINGOLD, Wisconsin       NORM COLEMAN, Minnesota
BARBARA BOXER, California            BOB CORKER, Tennessee
BILL NELSON, Florida                 JOHN E. SUNUNU, New Hampshire
BARACK OBAMA, Illinois               GEORGE V. VOINOVICH, Ohio
ROBERT MENENDEZ, New Jersey          LISA MURKOWSKI, Alaska
BENJAMIN L. CARDIN, Maryland         JIM DeMINT, South Carolina
ROBERT P. CASEY, Jr., Pennsylvania   JOHNNY ISAKSON, Georgia
JIM WEBB, Virginia                   DAVID VITTER, Louisiana
              Antony J. Blinken, Staff Director          
       Kenneth A. Myers, Jr., Republican Staff Director          

                                  (ii)























                            C O N T E N T S

                              ----------                              
                                                                   Page

Biden, Hon. Joseph R. Jr., U.S. Senator From Delaware............     1


Boxer, Hon. Barbara, U.S. Senator From California................     1

      Prepared statement.........................................     3


Casey, Hon. Robert P. Jr., U.S. Senator From Pennsylvania, 
  prepared statement.............................................    35


Lugar, Hon. Richard G., U.S. Senator From Indiana................     6


Prueher, Admiral Joseph W., USN (Ret.), former commander in 
  chief, U.S. Pacific Command, former Ambassador to The People's 
  Republic of China..............................................     8

      Prepared statement.........................................    12


Truly, Vice Admiral Richard H., USN (Ret.), former NASA 
  administrator, shuttle astronaut, and the first commander of 
  the Naval Space Command........................................    14

      Prepared statement.........................................    16


Wald, General Charles F., USAF (Ret.), former deputy commander, 
  U.S. European Command..........................................    17

      Prepared statement.........................................    20

              Additional Material Submitted for the Record

Statement submitted by Senator Barak Obama.......................    45

                                 (iii)





























 
                        CLIMATE CHANGE: NATIONAL
                            SECURITY THREATS

                              ----------                              


                         WEDNESDAY, MAY 9, 2007

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:32 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Joseph R. 
Biden, Jr. (chairman of the committee) presiding.
    Present: Senators Biden, Kerry, Boxer, Nelson, Obama, 
Menendez, Casey, Lugar, Hagel, Corker, and Murkowski.

        OPENING STATEMENT OF HON. JOSEPH R. BIDEN, JR., 
                   U.S. SENATOR FROM DELAWARE

    The Chairman. The hearing will come to order.
    Let me begin by saying we're honored to have the chairman 
of the Environment Committee here today, Senator Barbara Boxer, 
who has been in the lead on this issue of climate change in the 
Senate, and we're happy to--as a member of this committee, to 
have her here this morning in sort of a dual capacity. So--and 
I'm going to make an opening statement that's a little longer 
than I usually do, and than yield to Senator Lugar, but, with 
Senator Lugar's permission, maybe, if you have an opening 
comment, Senator Boxer, because this is something that is of 
such interest to you in your other--wearing your other hat.

           OPENING STATEMENT OF HON. BARBARA BOXER, 
                  U.S. SENATOR FROM CALIFORNIA

    Senator Boxer. Well, Mr. Chairman, I am so proud, as you 
know, to be a member of this committee. Both you and Senator 
Lugar are dynamic--a dynamic duo--and you're proving it yet 
again today with this hearing, which, if you asked many people, 
they wouldn't get the connection between the potential crisis 
we're facing on global warming and national security. But, as 
we'll learn today, there's a real nexus here.
    I appreciate being called on first, because, at 10 o'clock, 
I have a hearing right down the hall at EPW about this very 
issue. So, let me just put my whole statement in the record and 
ask for about 2 or 3 minutes, if I might.
    The Chairman. Without objection.
    Senator Boxer. I also, Mr. Chairman, want to thank you 
personally and publicly for going on the Sanders-Boxer global 
warming bill. This was a bill that was really written by our 
great former colleague Senator Jeffords, the most far-reaching 
global warming bill in the Senate. And I urge Senator Lugar to 
take a good look at it because it meets the threat head-on. 
It's the one that follows the scientists' recommendations in 
terms of what we need to do to reduce greenhouse gas emissions 
and save this planet, which I think is a moral and spiritual 
responsibility.
    Well, clearly, we live in a time when numerous threats post 
risks to our great nation every day. We see it--we saw it 
yesterday, over at Fort Dix. We have these threats from 
terrorism, ongoing conflict, geopolitical instability. And here 
we have another threat, I say to my colleagues. Global warming 
poses a threat to our overall well-being. And the report we'll 
hear about today is not the first time we've heard that global 
warming and national security are related. And I just want to 
make a couple of quick points.
    In 2003 the Department of Defense commissioned a report on 
this very subject, agreeing that unchecked global warming could 
create a large refugee population, shortages of food and water, 
and eventually lead to widespread conflict between nations. 
Now, I have to admit, in 2003 I didn't pay enough attention. 
I'll be completely honest here, it wasn't until we began 
reading more and more about it, and Al Gore came forward with 
``An Inconvenient Truth,'' and it is inconvenient--it is 
inconvenient to have to pay attention to this subject because 
we have so much else on our plate. That's why I commend you so 
much for it.
    The IPCC report, Intergovernmental Panel on Climate Change, 
issued in March, underscored the fact that global warming could 
have national security and world security implications. In Asia 
alone, fresh water shortages could affect more than a billion 
people by 2050. In Africa, by 2020 up to 250 million people 
could face shortages of fresh water. You know, in California we 
have what we call ``water wars.'' If you know the history of 
California, really all of the development took place--and I 
know both of you spend a lot of time in southern California, 
you--if you saw the movie ``Chinatown,'' you get a little 
flavor of what really drove development: fights over water. And 
there was a book written, called ``Cadillac Desert,'' about 
California, which basically made the point of how much we 
depend on water. Now, if you look at worldwide shortages of 
water--droughts and the like--we know that these shortages 
could cause conflicts and could have severe--severe--
consequences.
    So, I go through, in my statement, which will be printed in 
the record, a number of other problems that we face, beside 
droughts. We know that there'll be different kinds of problems 
with vectors, we'll have political instability, we'll have 
famine--more famine than we have now. But here's the good news. 
We can act with hope, not fear. And I think the fact that 
you're looking at this today gives me even more hope, because 
this is how I approach global warming: With hope; not fear. The 
last IPCC report said there is so much we can do, starting 
today, and they lay that out. We don't have to wait for some 
magic technology of the future. We don't have to wait for China 
to move. Since when do we wait for China before the greatest 
country in the World--America--does the right thing and leads 
the world with these technologies, which everyone will import, 
we'll have green-collar jobs, and the world will once again 
look to us?
    So, I am so grateful to both of you for holding this 
hearing. I thank you very much. And, Mr. Chairman, again, for 
going on the bill, for doing all this work, you have my deep 
gratitude.
    Thank you very much.
    [The prepared statement of Senator Boxer follows:]

              Prepared Statement of Senator Barbara Boxer

    Thank you, Mr. Chairman for holding this hearing on climate change 
and national security. I also want to thank you, Mr. Chairman, for co-
sponsoring the Sanders-Boxer bill to address global warming.
    We live in a time when numerous threats pose risks to our great 
nation. This committee knows well the threats we face everyday to our 
national security, from terrorism, ongoing conflict, and geopolitical 
instability. This committee is also aware of the threat global warming 
poses to our overall well-being. But we now better understand how 
global warming and national security are closely linked.
    The report we will hear about today is not the first time we have 
heard that global warming and national security are closely related. In 
2003, the Department of Defense commissioned a report on this subject, 
agreeing that unchecked global warming could create large refugee 
populations, shortages of food and water, and eventually lead to wide-
spread conflict between nations. These warnings are well founded. 
According to a recent report by the Intergovernmental Panel on Climate 
Change (IPCC), issued in March, global warming will have numerous 
impacts that could affect world-wide national security. For instance, 
in Asia alone, fresh water shortages could affect more than a billion 
people by 2050. In Africa, by 2020, up to 250 million people could face 
shortages of fresh water. World-wide, many millions of people will be 
flooded every year from sea-level rise by the 2080s. This could have 
severe consequences and create vast numbers of refugees.
    The Center for Naval Analyses (CNA) report we will hear about 
today, which was authored by 11 retired Admirals and Generals is very 
significant. The report found that projected global warming ``poses a 
serious threat to America's national security,'' and that global 
warming ``acts as a threat multiplier for instability in some of the 
most volatile regions of the world.''
    The report also says that the impacts of global warming could 
further weaken governments, leading to political instability in already 
fragile regions and create conditions that are ``ripe for turmoil, 
extremism, and terrorism.'' The report goes on to say that global 
warming impacts will likely increase the pressure on the United States 
and Europe ``to accept large numbers of immigrant and refugee 
populations.''
    One of our greatest vulnerabilities for our security is our 
dependence on foreign oil. We send large amounts of money to 
politically unstable and unfriendly areas of the world by purchasing 
large amounts of oil. We need to find ways to reduce our use of oil 
through conservation and to promote the production of clean, homegrown 
renewable fuels. That way we can fight global warming and enhance our 
national security at the same time.
    I hope the dire consequences that the Admirals and Generals have 
warned us about never come to pass. The way to make that happen is to 
act immediately to reduce greenhouse gases and stop global warming.
    I look forward to hearing all of the witnesses' testimony.


    The Chairman. Thank you, Senator.
    Gentlemen, thanks for your patience. We're going to each 
make an opening statement. Then we'll yield to you gentlemen 
for your statements.
    Let me reiterate what Senator Boxer just said. Under the 
leadership of Senator Lugar--and I want to make it clear, it is 
Senator Lugar who, we were having a discussion a couple of 
years ago, pointed out that he thought this committee should be 
focusing on the energy crisis, its impact upon our foreign 
policy. And Senator Lugar started a series of hearings, as 
chairman, and continues them now, as, essentially, the 
cochairman of this committee, focused on the national security 
threats that flow from our country's dependence on imported 
oil.
    And--but we've moved beyond that now, and, as he has, as 
well, and we have--we've paid a very high price over the 
decades, not just financially, but also in securing the 
lifeblood of our economy; that is, oil. The hearings we held, 
and the cold hard facts they illuminated, have begun to change 
the debate. We're no longer simply asking--as you three 
gentlemen well know--we're no long simply asking what it takes 
to secure oil from foreign sources; we're asking new questions 
now: How do we move away from oil? How--and how soon--can we 
develop alternative technologies that can loosen the grip of 
the axis of oil on our economy and on our foreign policy? And 
how, in short, can we achieve real energy security?
    This morning, we'll have a chance--we'll have a chance to 
change another very closely related debate, and that is how we 
talk about climate change. I have quoted, a number of times, 
the report that Senator Boxer referred to in 2003 by the 
Defense Department. And, quite frankly, when I started quoting 
it, in 2004, I don't think people really believed me when I'd 
be out, around my State, around the country, and involved in 
speeches to The Councils on Foreign Relations and things like 
that, and I'd quote it, and people would literally glaze over, 
like, I mean, ``What do you really mean? There's a prospect 
that--how we deal with global warming--or fail to deal with 
it--could actually cause wars?'' I mean, it literally was met 
with disbelief, until I realized I should start literally 
taking the report with me. But even that didn't seem to get 
much attention. And so, we're here to discuss, now, what has 
become much more apparent, an important new report by the 
Center for Naval Analysis Corporation on ``National Security 
and the Threat of Climate Change.''
    With us are three very, very senior members of--and of this 
Military Advisory Board responsible for this study, and the 
real contribution of this report will be, I hope, to change the 
way we think about global warming, to add a whole new dimension 
to our discussions about global warming as a new and very 
different national security challenge and will change the way 
we calculate the risk we face and the way we calculate the cost 
and benefits of our energy and climate policies.
    I want to welcome the witnesses today, who I'll speak to in 
just a moment, but--their very distinguished careers in the 
military, all retired: Admiral Joseph Prueher, who is U.S. Navy 
(Ret.) former Commander in Chief of the U.S. Pacific Command 
and former U.S. Ambassador to China; Vice Admiral Richard H. 
Truly, U.S. Navy (Ret.), former NASA administrator, Shuttle 
astronaut, first commander of the Naval Space Command; and 
General Charles F. Wald, U.S. Air Force (Ret.), former Deputy 
Commander, Headquarters, U.S. European Command.
    I'm afraid those brief introductions aren't going to even 
begin to do credit to the contributions you've made to your 
country already and the outstanding service you're continuing 
to perform, but I do want to just acknowledge the incredible 
service you have provided over the decades, and I think maybe 
the service you're providing now may be among the most 
important that you've provided.
    Though the report you have brought to us is striking, in my 
view, in several ways, first, this position on the science. 
Comprised of retired flag and general officers from all four 
services, the advisory board brought to this task many combined 
decades of experience in analyzing risks. The intelligence they 
used in their uniformed careers to assess the threats facing 
this country range from atomic physics to, quite literally, 
rocket science. They understand the need for the best-available 
technical information. They also understand the need to make 
decisions in the absence of mathematical certainty. Here, in 
the words of one of the members of the board not with us today, 
General Gordon Sullivan, former Chief of Staff of the Army, and 
I quote, ``We never have 100 percent certainty. We never have 
it. And if you wait until you have 100 percent certainty, 
something bad is going to happen on the battlefield.'' Well, 
this report moves us beyond the paralyzing debate over 100-
percent scientific certainty. The authors have seen that the 
science is robust and convincing, and their conclusions--their 
conclusions call for action.
    Second, I was struck by the clarity of the connections 
between the predictable effects of global warming and the human 
actions that we know will follow. The report warns us to expect 
profound shifts in the fundamental building blocks of nations 
and of economies. Climate change will reduce access to fresh 
water, impair food production, spread disease, erode coasts, 
and increase flooding, displacing millions, if not tens of 
millions, of people.
    Then the report shows us the consequences. Throughout human 
history, disruptions on this scale almost always, and 
everywhere, meant war. In those nations already on the brink, 
governments will lack the capacity to cope. When that happens, 
we will either be drawn in early to mitigate the worst of the 
climate effects, or we will be drawn in later as a nation when 
a conflict has destabilized those countries.
    This report shows how global warming will become a threat 
multiplier for instability and push failing states over the 
edge. And it also shows why delay, indifference, and inaction 
are simply no longer options.
    Finally, I was struck by the positive, mission-oriented 
response of this report. Here are some of the report's 
recommendations:
    Our National Intelligence Estimate, which we refer to up 
here as the NIE--our National Intelligence Estimates should, 
it's recommended, account for the threat of climate change. 
Senator Hagel has been a leader on this matter. I, and others 
on this committee, have joined him and Senator Durbin on their 
legislation calling for the incorporation of climate change 
into these National Intelligence Estimates.
    Second, our defense strategy should also address the 
effects of climate change, as should our Quadrennial Defense 
Review. We know the threat, and our plans must reflect it.
    The report calls for stronger national and international 
efforts by the United States to stabilize climate change. That 
means cutting deals that cut the greenhouse gas emissions that 
cause global warming. Senator Lugar and I, along with two 
dozens of our colleagues on both sides of the aisle, hope the 
Senate will soon be able to take up and pass our resolution 
calling for the return of U.S. leadership in global climate 
negotiations.
    The assessment of this report is that our current efforts 
are not adequate to the threat we face. There is much more to 
be explored here. So, I want to get to the testimony of our 
distinguished panel into our discussions, but I'll close with 
this.
    Climate, energy, national security--these are all facets of 
the same single challenge. A strong domestic and international 
response that increases our energy security, that slows, stops, 
and reverses the buildup of greenhouse gases, that policy--that 
policy--will make us more secure. Absent--absent--such a 
policy, we will be less secure, physically less secure. Denial, 
delay, and half measures are not going to be the order of the 
day any longer, I hope, and this report is contributing 
mightily to that change. This report takes all excuses, in my 
view, off the table.
    I'd now like to yield to my colleague Senator Lugar.

          OPENING STATEMENT OF HON. RICHARD G. LUGAR, 
                   U.S. SENATOR FROM INDIANA

    Senator Lugar. Well, thank you very much, Mr. Chairman. I 
thank Senator Boxer for her generous comments about the hearing 
and our leadership. And I am honored to join you, Mr. Chairman, 
in welcoming our distinguished panel.
    During the last Congress, as you pointed out, the Foreign 
Relations Committee held a series of eight hearings addressing 
the geopolitical consequences of energy imbalances and United 
States reliance on energy imports. In these hearings, we 
focused on quantifying the costs of the United States energy 
dependence and examining options for improving our energy 
security. We also explored in detail how energy is shaping our 
relationships with other nations, including India, China, 
Russia, Latin America, and the Persian Gulf states.
    During--these hearings identified six fundamental threats 
to United States national security associated with our 
overdependence on imported oil and other fossil fuels. Each of 
these six threats is becoming more acute as time passes. Any of 
them could be a source of catastrophe for the United States and 
the world.
    First, oil supplies are vulnerable to natural disasters, 
wars, terrorist attacks, that can disrupt the lifeblood of the 
international economy.
    Second, as large industrializing nations, such as China and 
India, seek new energy supplies, oil and natural gas will 
become more expensive. In the long run, we will face the 
prospect that the world's supply of oil may not be abundant and 
accessible enough to support continued economic growth in both 
the industrialized West and in large, rapidly growing 
economies. As we approach the point where the world's oil-
hungry economies are competing for insufficient supplies of 
energy, oil will become an even stronger magnet for conflict.
    Third, adversarial regimes are using energy supplies as 
leverage against their neighbors. We are used to thinking in 
terms of conventional warfare between nations, but energy is 
becoming a weapon of choice for those who possess it. Nations 
experiencing a cutoff of energy supplies, or even the threat of 
a cutoff, may become desperate, increasing the chances of armed 
conflict, terrorism, and economic collapse.
    Fourth, the revenues flowing to authoritarian regimes often 
increase corruption in those countries and allow them to 
insulate themselves from international pressure and the 
democratic aspirations of their own peoples. We are 
transferring hundreds of billions of dollars each year to some 
of the least accountable regimes in the world.
    Fifth, much of the developing world is being hit hard by 
rising energy costs, which often cancel the benefits of our 
foreign assistance. Without a diversification of energy 
supplies that emphasize environmentally friendly energy sources 
that are abundant in most developing countries, the national 
incomes of energy-poor nations will remain depressed, and that 
will have negative consequences for stability, development, 
disease eradication, and terrorism.
    The sixth threat is the risk of climate change, made worse 
by inefficient use of nonrenewable energy. Our scientific 
understanding of climate change has advanced significantly. We 
have better computer models, more measurements, and more 
evidence, from the shrinking polar caps to expanding tropical-
disease zones for plants and humans, that the problem is real, 
and is exacerbated by manmade emissions of greenhouse gases. In 
the long run, this could bring drought, famine, disease, and 
mass migration, all of which could lead to conflict.
    Given these potential outcomes, the study by the Military 
Advisory Board is particularly relevant and timely. To 
adequately prepare our security and diplomatic forces for 
future threats, we need to understand how climate change might 
be a source of war and instability. We also must ensure that 
our military infrastructure can adapt to new circumstances, a 
component of which developing secure alternative sources of 
fuel. The American military is at the forefront of those 
working to develop energy resources that do not depend on the 
goodwill of unpredictable, and sometimes hostile, regimes from 
volatile regions.
    As our 2006 hearings underscored, at just $60 a barrel, the 
annual import cost to the U.S. economy is well over $300 
billion a year. This revenue stream emboldens oil-rich 
governments, and enables them to entrench corruption and 
authoritarianism, fund anti-Western demagogic appeals, and 
support terrorism.
    As global oil demand increases and the world becomes more 
reliant on reserves concentrated in these regions, the 
likelihood of conflict over energy supplies will dramatically 
increase, and energy-exporting countries will have more 
opportunity to use their resources as leverage against energy-
poor nations.
    America is rich in coal, as are large developing nations, 
like China, India, and Ukraine. Coal remains a big part of the 
energy plans of many countries. The United States and the world 
are unlikely to be able to deal with climate change without 
progress on clean coal technologies.
    The Pentagon is experimenting with coal-to-gas and coal-to-
liquid technologies to fuel America's military. As the Pentagon 
moves to expand the use of coal fuels, it should simultaneously 
work to develop cost-effective carbon sequestration methods and 
cooperate with other agencies and entities engaged in this 
endeavor.
    I've urged the Bush administration and my colleagues in 
Congress to return to an international leadership role on the 
issue of climate change. As Senator Biden has pointed out, 
we've cosponsored Senate Resolution 30, a resolution that 
advocates U.S. participation in multilateral forums that 
attempt to achieve global solutions to the problems of 
greenhouse gases. The resolution is intended to find common 
ground in a debate that too often has been divisive and 
politicized.
    Senate Resolution 30 is not an endorsement of the Kyoto 
Protocol, nor does it support a negotiated outcome that is not 
in the national security and economic interests of the United 
States. Supporting the resolution does not require one to 
suspend reasonable skepticism regarding the pace, severity, or 
causes of climate change; it does not advocate a one-size-fits-
all policy. It acknowledges that greenhouse gas emissions of 
developing countries will soon surpass those of developed 
countries, and that a successful agreement will occur only if 
both developed and developing nations are involved.
    Even those who are skeptical of prevailing climate-change 
science should recognize that absenting ourselves from climate-
change discussions is counterproductive. Many nations and 
businesses across the globe are moving to respond to climate 
change in innovative ways. How the United States participates 
in these efforts will profoundly affect our diplomatic 
standing, our economic potential, and our national security.
    We should also recognize that many of the most important 
steps that could be taken by the United States to address 
climate would yield benefits for other U.S. priorities, 
especially bolstering energy security, generating export 
markets for high-technology industries, strengthening our rural 
economy, and improving air quality.
    Safeguarding the environment should not be viewed as a 
zero-sum decision in which limited resources must be diverted 
away from programs that more directly impact our immediate 
well-being. To the contrary, the environment and energy 
security are interlinked priorities, the advancement of which 
increases the welfare of all Americans.
    I thank Chairman Biden for holding this timely hearing. I 
look forward to the testimony of our panel.
    The Chairman. Thank you very much, Mr. Chairman.
    Gentlemen, again, we appreciate, very much, your being 
here. If you will proceed in the order you were mentioned, I'd 
appreciate it.
    Start with you, Mr. Ambassador.

  STATEMENT OF ADMIRAL JOSEPH W. PRUEHER, USN (RET.), FORMER 
COMMANDER IN CHIEF, U.S. PACIFIC COMMAND, FORMER AMBASSADOR TO 
                 THE PEOPLE'S REPUBLIC OF CHINA

    Ambassador Prueher. Thank you, Mr. Chairman, for your 
invitation to testify before this committee. I think you've 
introduced me sufficiently, I won't go through credentials and 
things here.
    But today, I'm here with two colleagues----
    The Chairman. I just have one question. Would you prefer 
being called ``Admiral'' or ``Ambassador''? I'd rather be 
``Admiral,'' but it's up to you.
    Ambassador Prueher. I answer that question that if an 
honorific is required, choose ``Admiral.'' That was 35 years, 
and----
    The Chairman. I'm with you.
    Admiral Prueher.--``Ambassador'' was 2.
    The Chairman. Admiral, keeping going.
    Admiral Prueher. The--I'm here with two of my colleagues, 
Air Force General Chuck Wald and Admiral Dick Truly. And I 
think one point should be that Dick Truly is a person who has a 
perspective on our planet that, I'd dare say, no one else in 
this room has, he's looked at it from a lot of different angles 
than the rest of us have, and he has a particularly valuable 
insight.
    The Chairman. I think Senator Nelson got a little bit of a 
view----
    Admiral Prueher. I think he did, too. That's right. We have 
a double view, there.
    But each of us will touch on different parts of this issue, 
and, hopefully, among the three of us, will give you a sense of 
the complete picture, as we see it.
    We were a group of other retired three- and four-star flag 
officers from the Army, Navy, Air Force, and Marine Corps, and 
we agreed to serve on this Military Advisory Panel to consider 
the potential impacts of climate change. By using our military 
experience, we were asked to--at a relatively high level--to 
assess the national security implications.
    Now, I think--listening to the statements that the Senators 
on the committee have made, we may not bring issues to this 
that have not been mentioned, but perhaps we can recognize them 
and frame them in a way that will be helpful and be persuasive, 
as well.
    And there are three basic points in my portion of the 
testimony that I'd like to stress:
    First, there is a direct linkage between climate change and 
energy security for our Nation. As we work to address the 
answers to one of these issues, we also make progress toward 
the other.
    The second point is, climate change will exacerbate many of 
the causes of instability that exist today in the world, and a 
lot of these instabilities are the underpinnings of extremism 
that we see in the world today.
    The third point is that climate change is going to be an 
increasingly important national security issue.
    Now, let me explain how we--our group arrived at his 
conclusions--at our conclusions. Like most of the other members 
of the board, I entered onto this endeavor with a good bit of 
skepticism, because there are a lot of conflicting reports 
surrounding climate science and about the factors that may 
drive climate change. But with all the scrutiny that we could 
muster--and we tried to look at it as objectively as we 
possibly could--all of us came to see that there are some 
really broad areas of agreement within the scientific 
community.
    There are several facts on which almost all scientists 
agree:
    One is that climate change is occurring and that it brings 
about warming changes in most regions.
    Second, atmospheric carbon in the environment is higher 
than it's been in the last 400,000 years, and it is increasing.
    Third, there is a linkage between the increased 
temperatures and the increased carbon levels, along with other 
greenhouse gases, in the atmosphere. This relationship is a 
complex one, but it does exist.
    And, fourth, that the reduction of atmospheric carbons, or 
arresting the increase, needs critical attention now from all 
of us.
    There are other things that we don't know for sure. We 
don't know exactly what kinds of effects climate change may 
bring; we just know that there is a range of possible effects. 
On the low end of the spectrum, and the very likely things that 
we will see, are rising temperatures, increased storm 
intensity, and shifts in precipitation and drought patterns 
throughout the world. These are Katrina-like events that I'm 
talking about here.
    On the higher end of the spectrum, the higher risk, we 
could see--maybe are not likely to see, but could see--dramatic 
shifts in weather, spread of infectious diseases, rapid loss of 
glaciers and sea-level rise.
    Now, this range of projected environmental effects will, in 
turn, affect societies. I'm trying to go through a logic train 
here. If, as projected, precipitation patterns change, and 
already stressed nations, nations which have fragile 
environments which are struggling now to provide food, 
clothing, and shelter for their people--if we--as they affect 
nations like these, that the access to food and water can be 
limited, and extreme weather events, as they occur more 
frequently, can decimate the infrastructure of poorer nations. 
As some project, if sea levels rise, human migrations may 
occur, both within and across borders, and these are issues 
that can, and will, affect societies and nations. These changes 
beget security risks for us.
    And, as you know, national security in--is discussed 
frequently, just having to do with guns and military strength. 
The people in this room are well aware that national security 
is defined as a confluence of political, military, economic, 
and cultural issues, and these all fit into the national 
security diagram. And when we--we risk a hazard when we don't 
consider all of these issues when we talk about national 
security.
    Climate change can have an impact on each of these: The 
political, military, economic, and cultural. And these will be 
particularly true in the world's most volatile regions, where 
environmental and resource challenges have already added 
greatly to the existing political, economic, and cultural 
tensions. These instabilities that result create fertile ground 
for extremism, and these instabilities are likely to be 
exacerbated by global climate change. When we add it up, the--
our view is that global climate change yields a group of 
challenges with which we have not yet grappled in a systematic 
way in our country.
    I request that our report, Mr. Chairman, be included in the 
record of this hearing, so I'd briefly like to summarize our 
findings.
    The Chairman. The full report will be included.
    Admiral Prueher. Thank you.
    [The report referred to by Admiral Prueher, ``National 
Security and the Threat of Climate Change,'' can be viewed at 
the following web-site:

http://securityandclimate.cna.org/report/SecurityandClimate--Final.pdf]


    Admiral Prueher. The are four fundamental findings:
    Climate change poses a serious threat to America's national 
security.
    Climate change acts as a threat multiplier for instability 
in the most volatile regions of the world.
    Third, climate change will add to tensions in even stable 
regions of the world.
    And, fourth, climate change, national security, and energy 
independence are a related set of global challenges, as has 
been pointed out before.
    I know General Wall will offer rich detail on these 
findings and talk about our recommendations. Admiral Truly will 
touch on ways in which climate change will affect military 
commanders, moving forward. And with my remaining time, I'd 
like to make three quick observations.
    The first is to complete the link and highlight that link 
between climate change and energy security. One can describe 
our current energy supply as finite, foreign, and fickle. And 
continued pursuit of overseas energy supplies, and our 
addiction to them, cause a great loss of leverage for our 
Nation in the international arena. Ironically, our focus on 
climate change may actually help us on this count. Key elements 
of the solution set to mitigate climate change are the same 
ones we would use to gain energy security. Focusing on climate 
is not a distraction from our current challenges, it may 
actually help us identify solutions.
    Second point is, this issue is one that the United States 
alone cannot solve. If we in the United States do everything 
right from now on out, assuming what we know to do is right, 
the hazards of global climate change would not be solved. 
China, India, Brazil, other nations are integral to the global 
solution, but we can't use this as an excuse for inaction on 
our part. We must, instead, engage them on many fronts. Many 
issues of great importance to our world will not get solved 
without the United States and China working together. So, not 
talking to the Chinese, and not engaging them on global climate 
change, is not an option, or it's certainly not a useful 
option.
    My third point, for military leaders our first 
responsibility is always to try to fight the right war at the 
right place in the right time. The highest and best form of 
victory for one's nation involves meeting the objectives that 
one seeks for the--as a servant of the nation without having to 
actually resort to conflict. It's a process of trumping the 
battle, if you will. It takes a great deal of planning, 
strategy, resources, and moral courage, but it's the higher art 
form for servants of the nation to use, and we need to use it 
in this way.
    It seems like, to me, to be a reasonable way to think about 
climate and security. There are a great many risks associated 
with climate change. We don't know what they all are, and we 
also don't know what all the costs are. They're uncertain. But 
if we start planning and working now, we may be able to meet 
our security objectives and also mitigate some of the climate 
battles that we might face in the future. They will not--they 
will not attenuate, they will only get worse.
    The potential and adverse effects of climate change could 
make our current challenges seem small. Facing and sorting 
these challenges for our Nation's leaders can be daunting. It 
will require vision, it will require perseverance and 
proactivity and courage, and it'll require thoughtful 
articulation. What we cannot do is wait.
    And we're most grateful to the committee for asking us, and 
for considering this issue.
    Thank you.
    [The prepared statement of General Prueher follows:]

 Prepared Statement of Admiral Joseph W. Prueher, USN (Ret.), Military 
 Advisory Board to the CNA Corporation Report, ``National Security and 
                     the Threat of Climate Change''

    Thank you, Mr. Chairman, for your invitation to testify before this 
committee.
    My name is Joseph Prueher. I served the people of the United States 
for 39 years as a Navy officer. My last position in the Navy was as 
commander in chief of the U.S. Pacific Command. After retiring from the 
Navy, I served, under Presidents Clinton and Bush, as our Ambassador to 
China.
    Today, I am here with two of my colleagues, General Chuck Wald and 
Admiral Richard Truly. We'll each touch on different parts of this 
issue; hopefully, the three of us together can give you a sense of the 
complete picture, as we see it.
    Along with other retired three- and four-star Flag Officers from 
the Army, Navy, Air Force, and Marines, we agreed to serve on a 
Military Advisory Board to the CNA Corporation to consider the 
potential impacts of climate change. Using our experience as military 
leaders, we were asked to assess the national security implications of 
climate change.
    In speaking to you today, here are the points I'd like to stress:

  <bullet> There is a direct linkage between climate change and energy 
        security. As we work to address one, we can make progress 
        toward the other.
  <bullet> Climate change will exacerbate many of the causes of 
        instability that exist today. Those instabilities are part of 
        the underpinnings of extremism.
  <bullet> Climate change will become a significant national security 
        issue. Now, let me explain how our group reached its 
        conclusions.

    Like most of the others on the board, owing to conflicting reports, 
I entered our discussions with skepticism about the arguments 
surrounding climate science and about the factors that might drive 
climate change. But with all the scrutiny we could muster, all of us 
came to see that there are some areas of broad agreement in the 
scientific community.
    There are several facts on which almost all scientists agree. 
Climate change is occurring now, with warming trends in most regions. 
Atmospheric carbon is higher than at any point in the last 400,000 
years, and is increasing. There is a linkage between increased 
temperatures and increased carbon levels (along with other greenhouse 
gases) in the atmosphere; that relationship is complex, but it does 
exist.
    There are other things we don't know. We don't know exactly what 
kinds of effects climate change may bring--we just know there is a 
range of possible effects. On the low end, we are likely to see rising 
temperatures, increased storm intensity, and shifts in precipitation 
and drought patterns. These are Katrina-like events. On the higher end 
of the spectrum, we could see more dramatic shifts in weather, the 
spread of infectious diseases, rapid loss of glaciers, and sea level 
rise.
    This range of projected environmental effects will in turn affect 
societies. If, as projected, precipitation patterns change, an already-
stressed nation's access to food and water can be limited. If, as 
projected, extreme weather events occur more frequently, a poorer 
nation's infrastructure can be decimated. If, as some project, sea 
levels rise, human migrations may occur, likely both within and across 
borders. These are issues that can, and will, affect societies and 
nations. These changes beget security risks.
    As you know, national security involves much more than guns and 
military strength. The national security diagram consists of political, 
military, cultural, and economic elements. These elements overlap, to 
one degree or another, and every major issue in the international arena 
contains all of them. We risk our security when we don't consider the 
full range of these issues. And climate change has an impact on each of 
them. This will be particularly true in the world's most volatile 
regions, where environmental and natural resource challenges have added 
greatly to the existing political, economic, and cultural tensions. The 
instabilities that result now create fertile ground for extremism--and 
these instabilities are likely to be exacerbated by global climate 
change.
    When we add it up, our view is that global climate change yields a 
group of challenges with which we've not grappled in a systematic way.
    I request that our full report be included in the record of this 
hearing, so I will very quickly summarize our key findings.

  <bullet> Projected climate change poses a serious threat to America's 
        national security.
  <bullet> Climate change acts as a threat multiplier for instability 
        in some of the most volatile regions of the world.
  <bullet> Projected climate change will add to tensions even in stable 
        regions of the world.
  <bullet> Climate change, national security, and energy dependence are 
        a related set of global challenges.
    I know General Wald will offer some rich detail on these findings 
and will note our recommendations, and Admiral Truly will touch on the 
ways in which climate change will affect military commanders moving 
forward. With my remaining time, I'd like to make three quick 
observations.
    The first is to highlight that link between climate change and 
energy security. One can describe our current energy supply as finite, 
foreign, and fickle. Continued pursuit of overseas energy supplies, and 
our addiction to them, cause a great loss of leverage in the 
international arena. Ironically, a focus on climate change may actually 
help us on this count. Key elements of the solution set for climate 
change are the same ones we would use to gain energy security. Focusing 
on climate is not a distraction from our current challenges; it may 
actually help us identify solutions.
    Second, this issue is one that the United States alone cannot 
solve. If we in our Nation do everything right--assuming we know what 
is right--the hazards of global climate change would not be solved. 
China and India are integral to the global solution, but we cannot use 
this as an excuse for inaction. We must instead engage them--on many 
fronts. Many issues of great importance to our world will not get 
solved without U.S. and Chinese cooperation. Not talking to the Chinese 
about climate change is not a useful option.
    My third point: For military leaders, the first responsibility is 
to fight the right war, at the right time, at the right place. The 
highest and best form of victory for one's nation involves meeting the 
objectives without actually having to resort to conflict. It's a 
process of trumping the battle, if you will. It takes a great deal of 
planning, strategy, resources, and moral courage, but that is the 
higher art form for a servant of the nation.
    That seems to be a reasonable way to think about climate and 
security. There are a great many risks associated with climate change, 
and the costs are uncertain. But if we start planning and working now, 
we may be able to meet our security objectives, and mitigate some of 
those battles.
    The potential and adverse effects of climate change could make 
current changes seem small. Facing and sorting these challenges, for 
our Nation's leaders, can be daunting. It will require vision, 
proactivity, courage, and thoughtful articulation. What we cannot do is 
wait.
    I'm most grateful that this committee is considering this issue. 
Thank you.

    The Chairman. We're grateful to you.
    Admiral, let's do this the military way. I'll go to you 
next, since you were the next one referenced.
    Thank you.

STATEMENT OF VICE ADMIRAL RICHARD H. TRULY, USN (RET.), FORMER 
NASA ADMINISTRATOR, SHUTTLE ASTRONAUT, AND THE FIRST COMMANDER 
                   OF THE NAVAL SPACE COMMAND

    Admiral Truly. Thank you, Mr. Chairman. Thank you for 
having us here today. And thank you for your introduction a 
little earlier. We, all three of us, appreciate it.
    This--our Military Advisory Board--spent about the last 8 
months dealing with this issue in many meetings. We had 11 
members. Eight of the eleven members are retired four-stars. I 
had the privilege of being the junior officer on the group.
    Our members had a wide range of experience--a former 
Ambassador, NASA Administrator, heads of things other than the 
military--in my mind, though, the thing that--the voices of 
experience that I really appreciated most were those, two of 
whom are sitting at this table, are former commanders or deputy 
commanders of U.S. forces in the very regions of the world that 
our report addresses, and that is the--Asia and the Pacific, 
Europe and Africa, and the Middle East.
    I can tell you that we had spirited discussions, different 
points of view, and we certainly did not agree on everything. 
However, we did agree on the findings and recommendations that 
we're presenting here to your hearing today, and we did that 
because everywhere we looked, and no matter how long we 
examined the possibilities, we kept coming back to something 
that Admiral Prueher just mentioned, and that is the potential 
impacts of climate change--first, on the environment, and then 
the ways that those environmental stresses impact societies, 
and then those ways that those societal effects could turn into 
security consequences--led us to our findings and 
recommendations.
    This is particularly true in the regions of the world where 
margins of survival are thin, where borders are uncontrolled, 
and where societies are already extremely stressed. It's really 
hard to see how we can avoid these areas become breeding 
grounds for further trouble.
    One region that is particularly important, that General 
Wald will talk about from his personal experience, is in 
Africa. Another is in the Middle East.
    In the Middle East, two natural resources dominate the 
discussion: First oil and its abundance, and then water and its 
scarcity. Climate change has the potential to exacerbate 
tensions over water, because projected--precipitation patterns 
are projected to decline in this area--some, as much as 40 to 
60 percent--leading to more--even more trouble in this region 
that has a history of both stable and very fragile governments 
and infrastructures, and historical animosities between 
countries and religious groups.
    Another threat is the combination of both observed and 
projected sea-level rise, with increases in violent storms, and 
the threat that they pose to coastal regions. Much of our 
critical infrastructure, both in trade and energy and defense, 
lies on our coasts. In the Pacific, particularly, and in some 
places in the Indian Ocean, there are literally low-lying 
island nations that are--that, depending on the level of sea-
level rise, could literally be inundated. And we have, also, 
strategic military installations around the world that are very 
low average elevation, such as in Diego Garcia, which is a 
principal strategic military facility that's critical to our 
Middle East operations.
    Sea-level rise, when it occurs, and depending on its 
severity, also will pose a severe risk to the major river 
deltas of the world. One that General Wald will mention is the 
Niger River, in Africa, but, in addition, particularly the 
mouths of--the Ganges Delta, in the Bay of Bengal, comprising a 
large portion of Bangladesh and east India. This is one of the 
most densely populated areas on Earth, and it is also one of 
the most stressed areas on Earth. A small sea-level rise of--
literally measured in inches could displace millions of people 
from this delta. And as--and what does this have to do with 
security? Well, as they turn around to walk to drier ground, 
they're also facing more of the most densely populated places 
on Earth, and also borders between Bangladesh, India, and east 
Pakistan.
    Another thing that's going to be different about the 
national security pressures caused by climate change with those 
that we have been--we have experienced in our history, is also 
pointed out by the example that I just gave about river deltas. 
We are used to normally dealing with single conflicts that are 
generally geographically confined. However, in this case, if 
the Niger River Delta becomes stressed and flooded by sea-level 
rise, and the mouth of the Ganges becomes flooded, so will the 
Mekong, the Yangtze, the Nile, the Mississippi, all at the same 
time. And this has potentially overwhelming security 
challenges, and that's why we recommend that we begin to assess 
and plan for them now instead of later.
    There will also be added tensions in stable parts of the 
world, including here in the United States. However, with our 
strength and wealth, we will be far better able to cope with 
internal stresses. But we will see them. Where I live, out in 
the West, it'll be water. At places down in the Mississippi 
Delta and other coastal regions, it may be storms and sea-level 
rise. But we have a much better chance of coping.
    However, just south of us, the climate models predict major 
decreases in precipitation and rainfall, and--particularly in 
Mexico and the northern parts of Latin America, and that could 
pose additional immigration stresses on our southern border 
that we are already dealing with, but could possibly be 
exacerbated.
    And the polar regions is another area that climate change 
will affect--again, at the same time as these others--and feel 
those effects sooner. In the Arctic Ocean, all indications are 
that the Northwest Passage that is--connects the Atlantic Ocean 
and the Pacific through Canada's high Arctic--in coming 
decades, is going to become navigable part-year, and, later 
this century, it's predicted that the Arctic Ocean itself will 
be ice-free in the summer, and--later in the century.
    An example of an issue that will have to be dealt with--an 
international issue--is the fact that--is the Northwest Passage 
Canadian territorial water, or is it international water, open 
to navigation? This is a example of a international issue that 
will have to be dealt with, and caused by climate change.
    In the polar regions, also, we've read a lot, and we heard 
a lot, about indications--and, in some cases, accelerating 
indications--of melting of the Greenland ice cap, and 
particularly, also, of the west Antarctic ice sheet. This will 
directly affect sea-level rise. There's great uncertainty in 
the scientific community as to levels and timetables. But, in 
fact, they are major issues that will have to be studied.
    Mr. Chairman, we came together today with just a few 
examples of what we spent a lot of time in the last several 
months--there are others--of the various elements of our 
national security--again, that Admiral Prueher mentioned--
political, economic, cultural, and military issues that we 
believe the Nation should address as we look at the effects of 
climate change on our national security.
    And I thank you very much for allowing us to be here.
    [The prepared statement of Admiral Truly follows:]

 Prepared Statement of Vice Admiral Richard Truly, USN (Ret.), Member, 
   Military Advisory Board to the CNA Corporation Report, ``National 
              Security and the Threat of Climate Change''

    My name is Richard Truly, and I served more than 30 years on active 
duty in the U.S. Navy. Much of this period was on exchange duty with 
the Air Force and NASA, serving in both the national security and 
civilian space programs. My final Navy duty assignment was again at 
NASA, charged with returning the space shuttle to safe flight following 
the Challenger accident. I retired from the Navy in 1989 as a vice 
admiral, and was sworn in the following morning as Administrator of 
NASA. Following my departure from NASA in 1992, I served several years 
as director of the Georgia Tech Research Institute, then as Director of 
the Department of Energy's National Renewable Laboratory for 8 years. 
It was during this period that I began paying serious attention to the 
possibility of global warming, leading to climate change.
    No issue could possibly be more global than the possibility of 
changes in the Earth's climate. During the 8 months that our Military 
Advisory Board debated these effects on our national security, we were 
fortunate to have such a wide range of senior military, diplomatic, and 
civilian agency experience and differing viewpoints at our disposal. Of 
particular importance, in my view, were the voices of experience from 
commanders of U.S. combat forces in Asia and the Pacific, Europe, 
Africa, and the Middle East as we explored the possible effects of 
changing environments in these regions.
    We had quite spirited discussions about a range of issues from 
climate science to the causes of local, regional, and global conflict.
    But we coalesced around a single set of findings and 
recommendations because everywhere in the world we looked, and the 
longer we examined the possibilities, we kept arriving at the same 
conclusion which Admiral Prueher mentioned--that the potential impacts 
of climate change inevitably exacerbate societal stresses, which in 
turn have potentially severe security consequences. This is 
particularly true in some of the regions of the world where margins for 
survival is already thin, borders are uncontrolled, and societies are 
extremely stressed. It's hard to see how these regions can avoid 
becoming breeding grounds for further trouble.
    One of these regions is the Continent of Africa, which General Wald 
covered in some detail.
    Another is the Middle East, long a tinder box of conflict. The 
natural environment of this region is dominated by two important 
natural resources--oil because of its abundance, and water because of 
its scarcity. Climate change has the potential to exacerbate tensions 
over water as precipitation patterns decrease, projected to decline as 
much as 60 percent in some areas. This suggests even more trouble in a 
region of fragile governments and infrastructures and historical 
animosities among countries and religious groups.
    Observed and projected sea level rise coupled with the predicted 
increase in violent storms poses a new threat to coastal regions. Some 
of our most critical infrastructure for trade, energy, and defense is 
located on our coasts. Further, a number of low-lying island nations, 
particularly in the Pacific and Indian Oceans, could literally be under 
threat of inundation in coming decades. Some of our strategic military 
installations are located on low-lying islands, such as Diego Garcia, 
which is a critical base of support for our Middle East operations.
    Major river deltas are at severe risk from projected sea level 
rise. General Wald discussed the consequences of the Niger River Delta 
flooding; other examples that could pose disastrous conditions are the 
Nile Delta in Egypt, and of course the Mouths of the Ganges Delta in 
Eastern India and Bangladesh, one of the most densely populated and 
stressed locations on the planet. Sea level rise has the potential to 
displace tens of millions of people from this area with potentially 
serious destabilizing effects in a region that is strategically and 
economically important to the United States.
    These potential river delta floodings also point out a major 
difference in national security threats caused by climate change than 
those we are accustomed to. Normally, we deal with single isolated 
conflicts in generally confined geographical areas. But when the Niger 
Delta floods, so will other rivers such as the Nile, the Ganges, and 
the Mississippi, for example. This could present overwhelming security 
challenges for our military in widely dispersed areas of the world.
    Projected climate change will add tensions even in stable regions 
of the world, including the United States, although our strength and 
wealth places us in a far better position to cope. But prolonged 
declines in rainfall in Mexico and Latin America predicted by climate 
models could exacerbate an already challenging immigration situation on 
our southern border.
    Polar regions feel the effects of climate sooner, and more acutely, 
than lower latitudes. All indications are that the Northwest Passage 
connecting the Atlantic with the Pacific Ocean by way of Canada's high 
Arctic will be navigable part year within a decade or so, and ice-free 
in summer later in the century. The United States considers the 
Northwest Passage as international waters free to navigation, but 
Canada considers it territorial waters. We anticipate many countries 
will push for the passage to be declared an international waterway--
including the European Union, Russia, and others. This would pose an 
international issue, directly caused by climate change, to all the 
nations bordering the Arctic Ocean.
    These are but a few examples of how the expected effects of climate 
change can lead to increased stress on populations and increased strife 
among countries. In the national and international security 
environment, climate change threatens to add new hostile and stressing 
factors. We believe that climate change, national security, and energy 
dependence are a related set of global challenges.
    As Admiral Prueher pointed out, our security revolves around issues 
that are political, economic, cultural, and military in nature. We have 
concluded that the potential effects of climate change warrant serious 
national attention, and I want to thank the committee for addressing 
this serious and important issue.

    The Chairman. Thank you very much.
    General Wald.

   STATEMENT OF GENERAL CHARLES F. WALD, USAF (RET.), FORMER 
            DEPUTY COMMANDER, U.S. EUROPEAN COMMAND

    General Wald. Thank you, Mr. Chairman and Senators.
    As was introduced earlier, I'm Chuck Wald. I recently 
retired from the U.S. Air Force after 35 years of service. And 
during my career I was stationed overseas for more than 15 
years, the majority of the time in Europe and the Middle East. 
And in my last assignment I was the deputy commander, as was 
mentioned, to the United States European Command, in Stuttgart, 
Germany, which is somewhat of a misnomer, because European 
Command includes 91 countries, including Africa and--most of 
Africa, the Middle--some Middle East countries, and the 
Caucasus.
    As part of my duties as the deputy commander, I traveled 
extensively and spent a considerable amount of time in 
countries facing significant challenges, economically, 
politically, and environmentally, as was mentioned earlier by 
the admirals.
    The countries facing the greatest obstacles to stability 
and prosperity were in Africa, in my estimation. In European 
Command, we believed a new model of engagement was necessary to 
adequately address the issues required to create a stable and 
productive and secure environment. This is particularly true in 
Africa, where nontraditional threats to stability, like massive 
health issues due to extensive HIV/AIDS problems, malaria, 
limited-to-nonexistent infrastructure, and poor governance all 
contribute to a very volatile and potentially explosive 
situation. These factors will likely be severely complicated by 
shifting weather patterns, due to climate change.
    Beyond the more conventional threats we traditionally 
address, I believe we must now also prepare to respond go the 
consequences of dramatic population migrations, pandemic health 
issues, and significant food and water shortages due to the 
possibility of major climate change.
    I would like to offer a bit more detail on how we, as a 
group, see climate change as a national security issue, and 
I'll do that by focusing on Africa.
    If we look at one country--Nigeria--we can get a sense of 
how projected environmental impacts could easily become serious 
security challenges. Even in a time of relative stability in 
Nigeria, there is very little governance, and very limited 
capacity to provide huge numbers of people with the basics, 
such as electricity, clean water, healthcare, or education. 
That's the situation today, and it's a very tenuous 
environment.
    If Nigeria's access to fresh water is reduced, or 
additional stresses are placed on food production, which could 
be a result of projected changes in rainfall patterns, millions 
of people would likely be displaced. And, as Dick mentioned, if 
the Niger Delta were to be flooded from sea-level rise, or if 
major storms damaged oil drilling capacity, the region would 
lose its primary source of income. Again, millions of people 
could be displaced. And I've personally spent time in Lagos, 
several times, and the best description I could make of it is, 
it's like a Mad Max movie. There's probably--they claim 6\1/2\ 
million people live there. I think the real number is more 
likely 17 million. Most of them live on stilts on the water, 
and it's the most abject poverty I've ever seen. And I think 
if, as Admiral Truly mentioned, there was no way that the 
Nigerian Government could really handle that problem.
    The other part of Nigeria that I think is incredible to 
many is its population is 160 million people today, estimated, 
which is larger than Russia, and their population is very 
dramatically split between the north and the south, with 
Muslims in the north and Christians in the south. They've 
recently had an election in Nigeria, as you all know, and, 
while we were there, we visited with the President several 
times. The political environment there is complicated by the 
fact that they have 250 political parties and over 250 
dialects. So, you're talking about a country that has huge 
problems. And the stresses that could be placed on them would 
add dramatically to the existing confusion and desperation, and 
place even more pressure on the Nigerian Government, and it 
makes the possibility of conflict, I believe, very real.
    One of the issues we worked on in European Command was: 
What would we do if there was a major civil disruption in 
Nigeria? And one of the complicating factors, there are 36,000 
Americans in Nigeria today, in various capacities, which, 
obviously, as the military, that's one of our functions, to 
ensure their security.
    If we look at the--Darfur, for example, we can see that the 
impact of climate change is not just an issue off in the 
distant future, it's having an effect on security today. The 
conflict in Darfur has many root causes, but one of its key 
instigators was driven by climate. Long periods of drought 
resulted in the loss of both farmland and grazing land to the 
desert. The loss of grazing lands led to nomads to migrate 
southward in search of water and herding grounds. This, in 
turn, led to the conflict with the farming tribes occupying 
those lands. With the added stresses of population growth and 
ethnic and tribal differences, the competition for land became 
violent. It's a perfect case study of how existing marginal 
situations can be exacerbated beyond the tipping point by 
climate-related factors. It's also why we refer to climate 
change as a threat multiplier. The Darfur region was already 
fragile and replete with threats, but those threats were 
multiplied by the stresses induced by climate change.
    The same could be said of Somalia, where alternating 
flood--drought, and floods led to migrations of varying size 
and speed. A prolonged instability grew out of those 
conditions, and the warlords capitalized on it. It's a glimpse 
at how climate change can cause the type of instability and 
failed states that lead to extremism and terrorism. Ungoverned 
spaces filled with desperate people are also the perfect 
recruiting ground for terrorist groups.
    These examples are all from Africa. And I think for--there 
are many reasons why Americans should be concerned about Africa 
and African security issues. For example, there are many exotic 
minerals found only in Africa that have essential military and 
civilian applications to the United States.
    We import more energy from Africa than we do from the 
Middle East today, and I think that would probably shock a lot 
of people. And that share of energy imports will grow in the 
near future. There are predictions that by 2015, the United 
States will import 40 percent of our oil from the west coast of 
Africa. By the way, that oil is sweet crude, and they tell me 
that you can pump it out of the ground and put it in a diesel 
car and drive it, so it's very appealing to us. But for those 
that have been to Africa, as Senator Hagel has visited with me 
several times there, their capacity to do maritime security is 
very, very limited to almost nonexistent.
    Other powerful nations, including China, are taking a keen 
interest in Africa, largely because of oil and mineral 
resources.
    And there is also a very human suffering taking place in 
Africa. Even in the context of security discussions, this 
reason matters, because part of our security depends very much 
on remaining true to our values as a nation. It's also 
important to note that the examples I have given, while all 
from the African Continent, can be replicated elsewhere. Our 
view is that climate change could be a threat multiplier in 
every global region.
    I'd like to finish by very briefly noting the 
recommendations--and I won't read them now; as the chairman 
mentioned, they'll be read into the record and were alluded to 
by Admiral Prueher, as well--but I would like to mention that 
the Military Advisory Board drew a very narrow line in making 
these recommendations, not wanting to stray too far from 
national--the national security area of expertise that we all 
have. But, as Admiral Prueher mentioned and others have stated, 
security is a broad field, and enhancing our Nation's security 
is certainly not the sole purview of the Department of Defense.
    There are many steps we can take as a nation to enhance our 
security. Some of these steps include reconsidering our energy 
choices and our carbon emissions. Some initiatives will include 
engaging with other nations, working together to bring about 
changes that will improve our environment. Some of the steps 
will be as difficult as they are necessary.
    And I'm very grateful to this committee--that this 
committee understands this and has chosen climate change--
chosen to consider climate change through the very important 
prism of our national security. Your decision to address this 
matter is, by itself, an important statement, and I thank you 
very much.
    [The prepared statement of General Wald follows:]

   Prepared Statement of General Charles Wald, USAF (Ret.), Member, 
   Military Advisory Board to the CNA Corporation Report, ``National 
              Security and the Threat of Climate Change''

    I am Chuck Wald and I recently retired from the U.S. Air Force 
after 35 years of active duty service. During my career I was stationed 
overseas for more than 15 years, the majority of the time in Europe and 
the Middle East. In my last assignment I was the deputy commander of 
United States European Command in Stuttgart, Germany. European 
Command's area of responsibility includes 91 countries in Europe, 
Eurasia, the Middle East, and Africa.
    As part of my duties as the DCOM of European Command, I traveled 
extensively and spent a considerable amount of time in countries facing 
significant challenges economically, politically, and environmentally. 
The countries facing the greatest obstacles to stability and prosperity 
were in Africa. In European Command, we believed a new model of 
``engagement'' was necessary to adequately address the issues required 
to create a stable, productive, and secure environment. This is 
particularly true in Africa where nontraditional ``threats'' to 
stability, like massive health issues due to extensive HIV-AIDS 
problems, malaria, limited to nonexistent infrastructure and poor 
governance all contribute to a very volatile and potentially explosive 
situation. These factors will likely be severely complicated by 
shifting weather patterns due to climate change. Beyond the more 
conventional threats we traditionally address, I believe we must now 
also prepare to respond to the consequences of dramatic population 
migrations, pandemic health issues, and significant food and water 
shortages due to the possibility of significant climate change.
    I want to offer a bit more detail on how we as a group see climate 
change as a national security issue. And I'll do that by focusing on 
Africa.
    If we look at one country--Nigeria--we can get a sense of how 
projected environmental impacts could easily become serious security 
challenges. Even in a time of ``relative'' stability in Nigeria, there 
is very little civil governance and very limited capacity to provide 
huge numbers of people with the basics--such as electricity, clean 
water, health care, or education. That's the situation today--it's a 
very tenuous environment.
    If Nigeria's access to fresh water is reduced or additional 
stresses on food production--which could be a result of projected 
changes in rainfall patterns--millions of people would likely be 
displaced. If the Niger Delta were to be flooded from sea level rise, 
or if major storms damaged oil-drilling capacity, the region would lose 
its primary source of income. Again, millions of people could be 
displaced. There really is no controlled place in Nigeria for displaced 
people to go, no organically controlled capacity for an organized 
departure, and an extremely limited capacity to create alternative 
living situations. And the movements would be occurring in a country 
with a population of 160 million people that is split geographically 
between Muslims and Christians. These stresses would add dramatically 
to the existing confusion and desperation, and place even more pressure 
on the Nigerian Government. It makes the possibility of conflict very 
real.
    If we look at Darfur, we can see that impact of climate change is 
not just an issue off in the distant future; it is having an affect on 
security today. The conflict in Darfur has many root causes, but one of 
its key instigators was driven by climate. Long periods of drought 
resulted in the loss of both farmland and grazing land to the desert. 
The loss of grazing lands led the nomads to migrate southward in search 
of water and herding grounds. This, in turn, led to conflict with the 
farming tribes occupying those lands. With the added stress of 
population growth, and ethnic and tribal differences, the competition 
for land became violent. It is a perfect case study of how existing 
marginal situations can be exacerbated beyond the tipping point by 
climate related factors. It is also why we refer to climate change as a 
``threat multiplier.'' The Darfur region was already fragile and 
replete with threats--but those threats were multiplied by the stresses 
induced by climate change.
    The same can be said of Somalia, where alternating drought and 
floods led to migrations of varying size and speed. A prolonged 
instability grew out of those conditions--and the warlords capitalized 
on it. It's a glimpse at how climate change can cause the type of 
instability and failed states that lead to extremism and terrorism. 
Ungoverned spaces, filled with desperate people, are also the perfect 
recruiting grounds for terrorist groups.
    These examples are all from Africa, and I think there are many 
reasons why Americans should be concerned about Africa and African 
security issues.

  <bullet> Many exotic minerals, found only in Africa, have essential 
        military and civilian applications.
  <bullet> We import more energy from Africa than the Middle East 
        today--probably a shock to a lot of people--and that share will 
        grow significantly in the near future.
  <bullet> Other powerful nations, including China, are taking a keen 
        interest in Africa, largely because of oil mineral resources
  <bullet> There is also the very real human suffering taking place in 
        Africa. Even in the context of security discussions, this 
        reason matters, because part of our security depends very much 
        on remaining true to our values as a Nation.

    It's important to note that the examples I have given, while all 
from the African Continent can be replicated elsewhere. Our view is 
that climate change could be a threat multiplier in every global 
region.
    I'd like to finish by very briefly noting the recommendations made 
in the report, ``National Security and the Threat of Climate Change.'' 
As a group, we made the following recommendations:

  <bullet> The national security consequences of climate change should 
        be fully integrated into national security and national defense 
        strategies. The intelligence community should incorporate 
        climate consequences into its National Intelligence Estimate. 
        In this regard, we support the legislation introduced by 
        Senators Durbin, Hagel, and Feinstein calling for a National 
        Intelligence Estimate on Global Climate Change.
  <bullet> The United States should commit to a stronger national and 
        international role to help stabilize climate changes at levels 
        that will avoid significant disruption to global security and 
        stability.
  <bullet> The United States should commit to global partnerships that 
        help less developed nations build the capacity and resiliency 
        to better manage climate impacts.
  <bullet> The Department of Defense should enhance its operational 
        capability by accelerating the adoption of improved business 
        processes and innovative technologies that result in improved 
        U.S. combat power through energy efficiency.
  <bullet> The DOD should conduct an assessment of the impact on U.S. 
        military installations worldwide of rising sea levels, extreme 
        weather events, and other possible climate change impacts over 
        the next 30 to 40 years.

    The Military Advisory Board drew a very narrow line in making these 
recommendations, not wanting to stray too far from our National 
Security area of expertise. But as Admiral Prueher and others have 
stated, security is a broad field, and enhancing our Nation's security 
is certainly not the sole purview of the Defense Department. There are 
many steps we can take as a nation to enhance our security. Some of 
those steps include reconsidering our energy choices and our carbon 
emissions. Some initiatives will include engaging with other nations, 
working together to bring about changes that will improve our 
environment. Some of the steps will be as difficult as they are 
necessary. I'm very grateful that this committee understands this, and 
has chosen to consider climate change through the very important prism 
of our national security. Your decision to address this matter is, by 
itself, an important statement.

    The Chairman. Thank you very much, gentlemen.
    With the chairman's permission, we'll go--7-minute round. 
Does that make sense?
    Let me begin. Admiral Prueher, may I ask you--that in 
this--in understanding and planning national security threats, 
what would you say to someone who would argue that we're 
already stretched pretty thin, and that we shouldn't glorify an 
environmental issue by treating it as a national security 
threat, and therefore we shouldn't put a burden on the 
intelligence communities to make it part of their National 
Intelligence Estimate?
    Admiral Prueher. Yes, sir.
    The--I think the response to that is the--it's the--we have 
urgent issues, and--urgent and important issues. This is one 
that is important, and is in the process of becoming urgent. I 
think the question implies that our accountable and responsible 
commanders, and our accountable and responsible agencies in 
government, are pretty well stressed right now, they've got a 
lot on their plate, they're dealing with the day-to-day fires 
that are licking around their ankles. This is--this issue of 
global climate change is one that we have the benefit of time 
to think about it in advance, it is one that we need to start 
to deal with it now, or it will become a very urgent issue that 
licks around our--the fires lick around our ankles all the 
time.
    So, the--we do need to spend some resources on it, and we 
need to get ahead of this issue. And it's important, because 
there is momentum to climate change, as well as just a static 
condition. And the momentum is already going on. Even if we do 
nothing right now, it'll continue to--the situation will 
continue to worsen.
    And--but what we--we need to look at it, and assess it, and 
the--the point, I think, of putting it in a National 
Intelligence Estimate, which we talked about in our report, I 
don't think the members of the committee would break our pick 
on having it just put in the National Intelligence Estimate, 
but it needs to be in the national security directives, the 
national strategy session, and the Quadrennial Review. It needs 
to be elevated to a position where it gets proper attention.
    The Chairman. My recollection of the 2002 report the 
Pentagon did, there was discussion about a breakpoint here, 
that if, at some point, we didn't begin the--there's a point at 
which our ability to respond to climate change is going to be 
vastly limited. It relates to atmospheric changes, when--the 
ocean warming, the--and so on and so forth. But I won't bore 
you with it. Did you guys look at whether or not--you know, you 
used the phrase, ``We have some time''--how much time we have 
before the world has to begin to reverse this process or it 
really becomes--it gets out of reach in being able to actually 
control it?
    My recollection was that that report--and I don't have it 
in front of me, and it's been a year since I've read it. There 
was a debate about the year 2040, or in that range. I mean, did 
you guys discuss any of that, in--or is that--did you not deal 
with that piece?
    Admiral Prueher. We did. And let me take a moment, and then 
I'll ask my colleagues----
    The Chairman. If you'd be brief, General, because my time--
I only have 3 minutes left. The answer--did you look at it, or 
not?
    Admiral Prueher. Yes.
    The Chairman. OK; good. That's the first thing I wanted to 
ask.
    The second thing I want ask you is--I want to follow up on 
this--is that--the point that Senator Lugar raised in his 
opening statement, coal amounts for 70 percent of the energy 
that is used in China now. You were Ambassador to China, and 
they're the second largest user of oil, behind only the United 
States. In just 5 years in this century, their energy use has 
jumped 40 percent, with a 10-percent annual growth rate, and 
their huge resources of dirty coal. It seems impossible--
impossible--to deflect them from the path they're on right now. 
So, I'd like to hear your views on China's energy situation, 
and what, if anything, you think we could do to make them part 
of a global solution here, because we can do, as I think you 
pointed out, General, or--I'm not sure who said it--we can do 
everything right--we're not doing everything nearly right, but 
we can do everything right, and if China and India keep 
consuming energy at the rate they are now, particularly using 
dirty coal and fossil fuels, we're in real trouble.
    Admiral Prueher. I'll try to get that as quickly as I can.
    The Chinese energy consumption is rising. They--there is 
not a sign of it abating. The legitimacy of the leadership--
read, the Communist Party--in China rests on their delivering 
the economic goods to the Chinese people, and they see that as 
requiring energy to continue to do so. They also are aware of 
environmental hazards, polluted rivers and things like that. 
They have a beginning awareness on it--of it, but not enough to 
cause them to diminish their economic growth.
    I would like to toss a bouquet to Secretary Paulson in the 
approach he's taking in the economic world, to take little 
steps to start to engage and get them to work on it. And we 
need to start that dialog.
    The Chairman. Well, it seems to me that--I know the 
environmental community is not real big on coal gasification, 
and--but it seems to me it could be a win-win situation for us, 
exporting technology as well as diminishing their--the negative 
impact of what they're clearly going to do.
    Let me conclude by asking each of the other two panelists 
one question--and we'll have plenty, but we have a very 
talented panel here who will ask you probably all the questions 
I'd like to follow up on--and that is that: Do you, gentlemen, 
get a sense that your colleagues still in uniform share your 
sense of urgency, or think about this issue in the context of 
national security, the prospects of looking down the road at 
future conflicts over territory, space, arable land, population 
movements, et cetera? Do you get a sense--I mean, because, as 
you point out, most of these women and men are up to their 
ankles in alligators right now. I mean, we are so stretching 
them, in my view. But, at any rate, that's another question. 
But, do you get a sense that those in uniform now feel this 
sense of urgency?
    I'd ask, General, and then you, Admiral Truly, if you 
would.
    General Wald. I'll start.
    I doubt if very many have thought it as much as we have, 
frankly. Now, first of all, I think they'd understand it 
quickly if they did. But I will say that I think the U.S. 
military--and there's a sense of, I guess, being overstretched 
with Iraq, which is an understandable issue--but we have a lot 
of other people in the military in the world doing other 
things, as well. And one of the issues in European Command is--
we were, I guess, somewhat blessed. We didn't have the Iraq 
problem as our problem, but we had other problems.
    And the way I'd answer it is that I think the U.S. military 
is looking at nontraditional ways to approach threats. Now, we 
still need to maintain a conventional capacity, and we have a 
great conventional capacity. And that will be a challenge in 
the future. And when you talked about China, the--I think the 
jury is out, but I think China can be a competitor without 
being an adversary.
    But we still need to think be thinking in terms of what 
that would do to us. But, in other terms, nonconventional 
threats, as Admiral Prueher mentioned, the diplomatic, 
information, military, and economic part of this equation, 
military people understand that.
    And, in European Command, we were in the process--and I 
think they still are--of recruiting people from the interagency 
to actually be on the staff to help us with the nontraditional 
approach, you know, the USAID folks or Treasury or Commerce or 
Department of Defense Logistics. And I think that's part of the 
future. And I'm encouraged that military people understand the 
complexity and dynamics of the threat.
    So, the real short answer, again, is, I doubt very many 
people have spent as much time in the military on it as we 
have, but I think there's a sense that we need to start 
changing our approach.
    The Chairman. How about you, Admiral.
    Admiral Truly. Mr. Chairman, my sense is, is that most of 
our military today are not paying attention to this issue. I 
have a grandson who's Army Special Forces in between 
deployments to Colombia and Afghanistan, and I hope he's not 
thinking about climate change. On the other hand--and I will 
say that I think most of them, like us, come to this issue 
first as skeptics. However, if they had the opportunity, as we 
have, to take time and listen, I believe that a great majority 
of them would agree that it's time to do the planning required 
for something, that we have the time to do.
    The Chairman. Well, I appreciate that very much. And I--the 
reason I asked the question--I'll conclude with this, Mr. 
Chairman--is that if I had to list, in the 34 years I've been 
here, the 10 brightest people I've ever worked with, 6 would be 
people wearing uniforms. And I am astounded by the service that 
you guys are giving. And just 10 days ago--2\1/2\ weeks ago, 
13--15 of your colleagues, three- and four-star, asked to meet 
with me. And I met with them. You know what they wanted to talk 
about? They wanted to make sure I'd continue to holler about 
torture and I'd continue to holler about the failure of the 
administration to abide by treaties, Why didn't we close down 
Guantanamo?
    The truth of the matter is that the most informed people I 
have met in my career here have, by and large, been people 
wearing stars on their shoulders or stripes on their sleeves, 
and the service--you and folks like General Hoar and others 
have put together this other group about civil liberties. I 
don't think most people know that.
    You know, you've got 15 generals insisting we continue to 
talk about civil liberties. That's pretty darn good stuff. And 
what you guys are doing, I hope permeates the tundra here and 
gets through.
    But, anyway, I want to thank you for your service, and I'll 
yield to my colleague, Senator Lugar.
    Senator Lugar. Thank you very much, Mr. Chairman.
    Let me just continue on your line of reasoning. This 
hearing we're having today will be dismissed by many in America 
who are paying any attention to it as being another one of 
those sorts of indulgences in which people think broadly about 
the future several decades outward on something that's not at 
all certain, and, as a result, we will be allowed to continue, 
sort of, with the romance of the climate change business, but 
ordinary Americans don't take it that seriously; it's not just 
people in the military uniforms.
    Now, you take it seriously, we take it seriously. But let 
me just ask: Is it conceivable that the Chinese and the 
Indians--we've talked about them, one-third of the population 
of the world, with reams of dirty coal and inexhaustible need 
for energy, which most people predict will--their use will 
exceed ours within at least two decades--are going to make any 
difference in this unless somebody has some idea about how you 
go about doing this in a practical manner?
    Now, take as a possibility--what if somebody running for 
President of the United States were to say, ``If I am elected, 
we're going to have CAFE standards for every vehicle the United 
States Government buys. We're going to have renewable sources 
for electricity.'' It's being debated in our committees, now, 
whether it should be 10 or 15 percent, or what have you. ``But 
we're going to do it as a government, a huge consumer of 
electricity.'' And so, it goes down through all the arguments 
that we're having, which we haven't decided, tied up in various 
committees and so forth. In essence, we're going to prove that 
you can do these things, physically, that the automobile 
industry can renovate rapidly enough to build all of this, 
ditto for the power industry, which, right now, the school of 
realists would say is inconceivable. Interesting enough, but 
simply not in the cards, and you need a lot of ways to get out 
if the requirement doesn't work.
    And, furthermore, they would say, it's just simply 
nonsensical, in terms of security, to be jeopardizing the fleet 
of all the military vehicles, plus our sources power, and so 
forth.
    My point is, unless there is that kind of leadership of 
that consequence, that size, so that Governors of States say 
the same sort of thing, mayors of cities, and so forth, it 
seems to be inconceivable the Chinese and the Indians are going 
to be convinced that they could do it. It's not just a little 
bit of transfer of technology to somebody with the hope that 
they might do it. Here are whole countries--as you say, the 
political system is vested in growth of poor people into 
income, and to be bound up in this without the technology, 
without the example, seems to me, is not going to occur.
    Now, do you have any reaction to this kind of leadership 
and the impact that it might have, or that it might not have--
finally, they say, ``It's just too hard.'' You managed to do 
it, but, nevertheless, we just couldn't get it across the 
finish line; my point is, without that, without our active 
diplomatic intervention, there's no possibility these things 
will occur in these countries.
    Admiral, from your experience?
    Admiral Prueher. Thanks, Senator Lugar.
    The--one reason we're sitting behind this table, and not 
behind that one, is we're not politicians, so I don't know that 
we can--I don't know whether a person could win on an 
environmental ticket or not.
    But the--but with respect to China and India--and I can 
speak with a little more authority about the Chinese--the--if 
we try to lead without having our skirts being pretty clean, if 
we don't have the moral high ground in the energy area, we can 
get discounted by the Chinese and the Indians, in--just out of 
hand. The fact--if we do--if we are doing what we ought to do, 
or what we need to do to gain energy security--and the linkage 
with energy security and climate change, I think, we've made--
then we at least have the ability to have the conversation with 
the Chinese and the Indians.
    The--I think one of the U.S. core strengths is 
technological solution, which is a part of this. It's not the--
it's not all of it, but it's a part of it. We can then talk 
about technological solutions. And I think it's a long process 
to start this discussion and to turn the consumption and the 
environmental wastes that go on in China and India, and also in 
our country--to turn them. It's a long process, which needs to 
start.
    So, I--my view is, it is possible to do it. One could 
argue, ``You're naive to say that. It's not possible.'' I 
don't--I think it's then immoral and irresponsible not to try. 
So, that's pretty much my own view of this, is that we can do 
it, it takes a long time; it's not our strong suit, we like 
bold solutions, but I think it's something we need to start. 
And this is my point earlier, in trying to toss the bouquet to 
Secretary Paulson, whose energy and willingness to take some 
heat about taking some baby steps forward to move forward on 
economic issues with the Chinese. I think that's the nature of 
the approach we have to take here.
    Senator Lugar. But that's the core of this hearing. If we 
do not succeed as a world, cataclysmic results are going to 
occur. And you've outlined many of those.
    Admiral Prueher. And----
    Senator Lugar. And, therefore, even then, as you say, we 
don't know whether the Chinese or the Indians will finally do 
it, but, without there being a huge technology change and some 
example--and that's the reason I selected the U.S. Government, 
as a huge consumer--I doubt whether individual consumers around 
the country are going to be able to make all of those 
decisions, or have the technology. There has to be some very 
powerful force. And I don't know of any alternative, other than 
the Federal Government that we all serve.
    Admiral Prueher. That's something with which we 
wholeheartedly agree, sir.
    Senator Lugar. Thank you very much, Mr. Chairman.
    The Chairman. Thank you.
    Senator Kerry.
    Senator Kerry. Mr. Chairman, thank you very much.
    First of all, thank you for having this hearing, which I 
think is a critical hearing. And I echo what Senator Lugar just 
said about how some will, sort of, you know, somehow pass by 
this hearing, and, you know, the room is, sort of, half to 
three-quarters full, and half the committee is here--but, in my 
judgment, this is one of the most important hearings I've been 
to and that we could have here in the Senate.
    Normally, I'm a questioner in these little moments we get, 
but I want to make a few comments today, if I can, and perhaps 
put an exclamation point on the testimony that we've heard from 
these extraordinarily distinguished retired military----
    Mr. Chairman, let me just say to Senator Lugar, in 2004 I 
did run for President, saying all of those things. And, 
unfortunately, they were hidden behind the cloak of a 
completely false debate about the war on terror and a lot of 
misleading statements about what the war was really all about.
    And one of the things we need to do in this country is 
understand the nature of the foreign policy challenge, the 
security challenge, that we really face. The population of 
Egypt, the population of Saudi Arabia, is about 60 percent or 
so under the age of 25, 50 percent under the age of 21, 40 
percent under the age of 18. They're unemployed, they're 
uneducated. And, I'll tell you, if global climate change occurs 
at the rate and quantity that it is now occurring without our 
adequate response, the capacity for madrassas and radical 
fundamentalism and all kinds of, you know, extreme ideas to 
fill people's heads with what their plight is really due to, 
and who's responsible for it, is going to increase our military 
demands, our conflict responses, across this planet. And if we 
don't ``get that'' quickly, we are really missing our 
responsibility here.
    But let me just throw a couple of things in front of my 
colleagues, if I can, quickly. I've spent a lot of time on 
this. I was part of the first hearings, in 1987, with Senator 
Al Gore. We held them in the Commerce Committee. We've been at 
it for over 20 years now.
    I went to the Rio meeting in 1992, when President George 
Herbert Walker Bush agreed to a voluntary framework. We've 
seen, over the last 15 years, that voluntarily doesn't--didn't, 
and doesn't, work.
    But the science that was put forward 15 years ago is now 
proving more and more true. Recently, I met with some of our 
top scientists--Ed Miles, from University of Washington, Bob 
Corell, at the Heinz Center, John Holdren, at Harvard--all a 
part of writers of the IPCC, which we are now listening to, 
finally, after its fourth report. They tell us there's a 90-
percent likelihood that all of these things are human-induced, 
and happening at the rate they are; 10 percent, in other words, 
perhaps not. But there's a certainty, as our own memo in this 
hearing says, that it's warming.
    There's an absolute certainty that humans are contributing 
to that. We don't know all of the parameters, the models, of 
what happens, but what the scientists tell us--and, you know, 
you can't be half-pregnant on this--if you accept the science 
that global climate change is happening, and that global 
climate change is human-induced, to the largest degree, then 
you also are duty bound to accept what they're beginning to 
tell us is happening. And all of those scientists--and 
scientists are conservative, you know, very restrained in their 
pronouncements. They--by nature and profession, they don't just 
leap out there and say anything. They say what they can prove 
and the deductions they draw from the science. And all of those 
scientists are now telling us that what is happening is 
happening at a greater rate, and to a greater degree than they 
previously predicted.
    And here's the conundrum. And it's in the committee memo 
today. Pre-Industrial Revolution, we had 280 parts per million 
of global climate gases in the atmosphere. Post-Industrial 
Revolution--today--we're up to 380 parts per million. So, we've 
traced 100 increase, concomitant with the increase of the 
temperature and the carbon dioxide. And the scientists are now 
telling us that, whereas 2 years ago they believed we could 
tolerate a 3-degree centigrade increase before catastrophe, 
which translates into 550 parts per million of greenhouse 
gases--they now have revamped that, and they've revamped it 
because of the rate of change that's taking place, and the 
quantity of change that they're seeing--the accelerated ice 
melt, the movement of species, the shift of currents, the 
increase of forest fires, the increase of violence of storms. I 
mean, you can go down a long list of things--the disappearance 
of coral, the increased acidity of the oceans, up 35-percent 
acidity, which changes the likelihood of how crustaceans can 
form their shells--i.e. lobsters, crabs. We're threatening all 
of these species. And that increase is a direct result of the 
amount of carbon dioxide, and, to some degree, sulfur dioxide, 
you know, mercury, and other things that go into the water. So, 
we're now revamping that.
    Scientists now tell us we can tolerate a 450-parts-per-
million level, and a 2-degree centigrade increase. Well, what's 
already--Admiral Prueher just talked about what's already up in 
the atmosphere, the damage that is already going to occur, that 
we have no knowledge of how to stop. What's already in the 
atmosphere guarantees an increase, additional, of about .8 
degrees centigrade to the already-measured increase of .8 
degrees centigrade. That brings you up to about 1.4/1.5 degrees 
centigrade. My colleagues, that gives us a .5/.6-degree 
centigrade cushion. It gives us the difference between 380 and 
450 parts per million--that's 70 parts per million--cushion 
before you invite catastrophe.
    The bottom line is that you can't build any more pulverized 
coal-fired plants that don't capture and sequester--can't do 
it--if we're going to be responsible. And, you know, we 
recently had a global climate--global legislators meeting here 
in Washington. Chinese delegation was there, a very significant 
Chinese delegation, significant Indian delegation, people from 
all over the world. They're aware of this--130 nations--Foreign 
Ministers, Finance Ministers, Economic Ministers, Prime 
Ministers, Presidents--have all staked their politics in doing 
something about this. Only the United States of America has 
refused, and doesn't.
    And so, that affects our foreign policy. If you don't think 
it doesn't affect our ability to move in the Middle East, and 
leverage people, and begin to deal with credibility, you're 
crazy. It just has a profound impact on people's sense that 
we're a scofflaw. We're 25 percent of the world's pollution, 
we're not doing anything.
    So, I say to my colleagues--I'll just wrap it up quickly; I 
don't want to abuse my time--but, you know, there isn't 
anything more important than this, because if this begins to 
happen, populations are going to move, trees and forests are 
going to migrate, the people--ability to grow crops is going to 
change, lakes are already drying up; water, which is scarce, 
about which wars can be fought now, will be that much more 
intense. So, the need for us to think this through, and not 
just think through, sort of, how do we mitigate, but how do we 
prevent the catastrophe itself from happening--believe me, you 
look at the MIT study, the technologies are there. We've just 
never put them to scale.
    And what leadership needs to do now is put 10 demonstration 
projects out there in the next few years, and say, ``Let the 
marketplace decide which one of these works best.'' But give 
them the options and the choices. All of our fleet--the Senator 
is correct, we shouldn't be contracting any fleet purchase that 
isn't hybrid or more effective. Green buildings--we're building 
all over Washington; how many of them are lead-certified so 
that they're platinum-certified and build to the new 
technologies of building materials and of design?
    We can do this. Other countries are way ahead of us. You 
walk up to an escalator in Japan, it's not running, you say, 
``It's broken.'' You get there, and it starts. And you go down, 
you get off; if nobody else is coming, the escalator stops. 
Show me a place in America where that happens. You walk out of 
a hotel room into the hall, the lights come up as you walk out. 
They automatically go down as you pass. They're off when you're 
gone. Show me the hotels in America where we do that.
    So, we have a long way to go. And admirals, and general, 
this is a great service. I think it's going to be recorded as 
one of the more important, sort of, statements about real 
security in our country. And we're going to have to factor this 
into everything we do. And our military, I believe, is going to 
have to be far more trained and structured to be faster, 
responsive, and capable of dealing with the kinds of conflicts 
that are going to come out of this, because it's going to shape 
the next generation security future. And I think this is that 
important.
    And I'm sorry, I rarely, sort of, use my whole question 
period just to talk, but I think it is that important to put an 
exclamation point on it. You folks are powerful validators for 
this. And I hope Americans will focus on what you bring to this 
table, and how important it is to all of us.
    Thank you.
    The Chairman. Well, you shouldn't apologize, Senator. 
You've been speaking about this for 15 years. And if we all had 
spent a little more attention, all of us at this panel, we may 
not be here in this spot.
    Senator Hagel.
    Senator Hagel. Mr. Chairman, thank you.
    And, gentlemen, welcome. I add my appreciation to each of 
you and your colleagues who invested time and continue to make 
contributions, as you have, to our country in one of the issues 
that is as critical for our future as any one issue. And you 
have all articulated that clearly. Your report indicates that. 
What my colleagues have said, I think, has fastened onto the 
reality of what's coming if we are not far wiser in how we 
address this issue.
    And what I think is particularly important, for those 
watching this hearing, to understand what you are saying, and 
have said, is not just the more defined scientific, 
technological aspects of climate change, but more to the point 
that you have all made, and that is that if we are to be 
successful in dealing with the 21st-century challenges that 
face our world today--and each of you have noted, within the 
context of this subject--extremism, terrorism, very limited 
margins of error, and all the dynamics that go with that, what 
you have produced is a clear understanding of a wider frame of 
reference for our national security--not only interests, but 
needs, as we approach these new challenges of the 21st century.
    The other part of this that you have been able to capture 
with, I think, complete clarity is that all of our interests 
are woven now into the same fabric, just as the three of you 
have noted. This is no longer a national security debate or 
interest or policy about our navies, our air forces, our 
armies, our marines, it's economic security, it's energy 
security, environmental security. And, I believe, for some 
time--and I've spent a little time on this issue--that until we 
come to a complete understand that we cannot talk about the 
environment without talking about energy, without talking about 
the economy, our national security--all are woven into the same 
fabric. And we have squandered a great deal of time in this 
country over the years of not--not only not appreciating that, 
but the economic and energy and environmental issues all being 
polarized, fighting each other over a capsulized, segmented 
area of interest and of concern and of importance. And your 
contributions here help us define this in a way that we need to 
define this in order to find solutions.
    General Wald, you noted that I have spent some time with 
you in Africa. And I always appreciated what you have done--and 
General Jones--to try to leap out ahead of this and project, 
not just for the military, but for all of us, an understanding. 
And those were very valuable times that I spent with you, and 
we spent considerable time in Nigeria in some of the areas that 
you've talked about. And it's helped me understand, far better 
than I would have otherwise, what this issue is about. And I do 
think it deserves the same attention that John Kerry talked 
about, Dick Lugar, Joe Biden, others. It is that serious.
    Many of you may know that Senator Durbin and I introduced 
legislation, over the last month, which would instruct the 
Director of National Intelligence to come forward with an 
integrated understanding of the consequences of this issue 
within the context of our national security interests, how that 
should be integrated. And we'll continue to follow up and push 
on that issue.
    I want to take the time I have left to ask each of you to 
define a little more clearly and specifically--and you didn't 
have the time to do it in your opening statements--but as we 
are adjusting to the realities of what's ahead--and we, I 
think, have that defined pretty well, we have a pretty clear 
inventory of these challenges that are coming, unless we do 
something about it--so, it always comes down to: What do we do 
about it?
    Let's go to the developing countries, which you have all 
laid out clearly, where much of this problem is going to come 
from, and already where much of the problem resides; China and 
India are two of the most clearly defined examples--use of 
coal. What should this Government be doing to work with, to 
help, to coordinate with, these countries in order to move this 
issue forward? The fact is that China and India and these 
developing countries are going to use the resources they have 
to develop their country--they have immense pressures and 
problems, you all know that better than almost anyone--to find 
jobs and to find a standard of living that improves the quality 
of life for their people.
    And so, they're going to reach to coal, they're going to 
take what they have. I'm encouraged--and I was a strong 
supporter of the arrangement we made with India last year, 
partly because it puts us in a position to have more influence, 
but the Indians, as you know, are now online to build 25 new 
nuclear power plants. Where does nuclear fit into this? Should 
it fit into this?
    So, if the three of you could, maybe, each take a minute to 
define, Where should this Government be going, the next 
administration--I'm sorry Senator Obama's not here--but the 
next President, as Senator Lugar noted, is going to have to 
deal with this, and is going to have to make this a priority. 
Where should we be going first to integrate these policies and 
strategies with these developing countries?
    Admiral Prueher.
    Admiral Prueher. Senator, let me ask Admiral Truly to go 
first. I've talked more than--and he's got some great ideas on 
this, and I'll go last, if that's all right with you.
    Senator Hagel. Admiral Truly.
    Admiral Truly. Thank you, Admiral.
    First, I think that we need to show leadership here in this 
country so that others will listen to us. And, furthermore, 
going back to what--Senator Lugar's comments before, I think 
that the Federal Government needs to show leadership on this 
issue. And a few years ago I chaired a--the first Defense 
Science Board Study on the--improving fuel efficiency of 
weapons platforms. When it comes to oil uses--usage in this 
country, the DOD really is a small percentage, but it is the 
largest organization that uses petroleum in the country, and it 
is not--we've found that it is not principally a matter of 
technology, it is just as much a matter of business processes 
within the DOD, and particularly visible leadership from the 
top, that says that we're going to begin to change the way that 
we operate. And that's not for environmental reasons, although 
they are important, it's for efficiency of our fighting forces.
    So, I really think that we need to--the United States, in 
order to be diplomatically successful as we deal with all these 
other countries, needs to improve the way we are acting about 
this problem, and, with that in our background, then, I think 
our diplomatic efforts will bear--have the hope of bearing 
great fruit.
    Senator Hagel. Thank you.
    General Wald.
    General Wald. Thank you, sir.
    I think that the United States is at a crossroads today. 
We've come out of the 20th century into the 21st century, and 
the world is changing rapidly, as you all know better than 
anybody, probably. But I don't think we recognize it yet. I 
remember in--when President Bush senior, mentioned that after 
the Berlin Wall fell, that we were in a new world order. And we 
were. But we haven't recognized what it is yet. And we have 
talked about this often. And I think it's defining itself now, 
and I think we're a little slow to realize what that is.
    One of the things I believe is, there should be a new 
structure of relationships in the world. And I am discouraged 
sometimes that we treat China, as I mentioned earlier, as a 
potential adversary. I think we should recognize that it could 
happen, but it's not a fait accompli. And so, we should start 
looking at that.
    I think we need enlightened leadership and vision on that, 
as you pointed out, and Senator Lugar did earlier, from the 
next President, whoever that may be, in the United States.
    But the way I, kind of, categorize the threats today are, I 
would put terrorism, No. 1, which is a--simple, I think, thing 
to do--with proliferation of WMD, or whatever that may be, as 
No. 2, but you combine them, they're No. 1 together. That is 
the threat that we face. After that, I'd put energy security as 
the next serious threat. Then after that, I'd put climate 
change. And me, as a military guy, I mean, I believe we need to 
continue to maintain a strong conventional capability, but I 
don't put that, right now, today, as one of the top five 
threats we're facing.
    And so, I think the Foreign Relations Committee has already 
done some excellent things to help us, and one was last year, 
when you introduced legislation to talk about Corporate Average 
Fuel Economy standards, which I think, Senator Lugar, you and 
Senator Biden and Senator Obama initiated--and yesterday, in 
the Commerce Committee--that was marked up, and I think that's 
a huge step in the right direction, and it will help us a lot 
from the standpoint of reducing our dependency.
    Now, that's not the only thing we need to do. I mean, to 
get out of--we know the terrorism/WMD issue, and, once again, 
Senator Lugar, what you've done in the Nunn-Lugar act, I think, 
is one of the most important pieces of legislation we've had, 
security wise, and we need to continue to do that in a serious 
way. And we're--we should really address that in a bigger way 
than just the Proliferation Security Initiative.
    But when you go back to energy security and our dependency, 
there's--there are multiple things we need to do, as you 
pointed out, and one--there isn't one issue that will solve it. 
It isn't just nuclear power; I think we should do that. It 
isn't just CAFE standards; we--it isn't just alternate fuels, 
and it isn't coal-to-liquid, necessarily; it's all of those 
things. And if we do coal-to-liquids, which I think has a part 
to play, we firmly believe we should do sequestration and clean 
technology.
    Now, on that point, with China, for example, we visited the 
United Kingdom and visited with Prime Minister Blair's staff on 
this issue, and asked them what they were doing with China, and 
they said they're developing clean coal technology, but they 
wouldn't be able to transfer it until 2015, because that's when 
they think they're going to get to it. And I think that is 
unfortunate. I think it has to do--much of it has to do with 
dedication of resources to that problem. And I think the U.S. 
Government should be--should take the lead on helping with 
clean coal technology, for example. And we also need to pass 
legislation that gets us down the road on doing a 
multidiscipline approach to getting us off dependency.
    Even if we did everything, if we did biofuels, if we did 
clean coal, we did renewables, we did nuclear power, we did 
more efficiency, we're still going to have some dependency on 
fossil fuel, conventional oil--or fuel, I should say, for the 
near future, and probably for a couple of decades. So, from 
that perspective, from a security standpoint, we're still going 
to be vulnerable to nations that don't necessarily have the 
common interest, as we do, in mind from affecting our foreign 
policy.
    So, I think, in my lifetime, we're at one of the more 
challenging times, probably one of the most dangerous times 
we've been in history, and it's going to take severe vision and 
leadership in this Nation to get us through this process. And I 
think the time for discussion is over.
    Senator Hagel. Mr. Chairman, may I ask Admiral Prueher to 
respond?
    The Chairman. Sure you may.
    Senator Hagel. Thank you.
    Admiral Prueher.
    Admiral Prueher. I may be in the category of, 
``Everything's been said, but not by me.'' [Laughter.]
    The three things I think are that we need to--the United 
States needs to lead. Now, that's not a--an indispensable-
nation type of leadership that I'm talking about, I think it's 
a leadership that requires us to get an example, to get our--to 
do what we can to get--lessen our energy dependence, to 
decrease our carbon emissions to a reasonable level, and 
hopefully it takes some further definition of what's a 
sustainable level. But that type of leadership in the world, of 
getting ourselves on the moral high ground, where we're not 
squandering our leadership opportunities, is an important 
thing, a point that Admiral Truly made.
    The second part is--our core competency in the United 
States, one of them, is technological excellence--so, exporting 
whatever clean coal technology is--there are some people that 
say liquefied or gasified coal, there's no way to make it 
clean, but we can do carbon sequestration, or we can work 
technological solutions. We have the most advanced--though the 
French might contest this--nuclear capability in the world for 
nuclear power plants, and I think that's certainly a piece of 
the solution. But we're 8 years away from building new nuclear 
power plants for our country, to decrease the carbon-emission 
portion of this.
    So, I think those two things--leadership, technology, writ 
large--and the third is working with the other nations to--
there are a lot of frameworks, but I--again, my experience with 
the Chinese, who, like us, do not like to be lectured to at 
all, but to build a framework and acknowledge that they have a 
right to have a reasonable life for their citizens, and they 
need to do what they need to do to have a reasonable life, put 
these things together, discuss them--given all that, we have a 
planetary problem we have to solve, and that's the environment, 
where our kids and grandchildren aren't going to be able to 
breathe clean air--the Chinese have our problems, in spades--
and build a forum in which we can have that dialog to move 
forward.
    Senator Hagel. Thank you.
    The Chairman. Thank you very much.
    Speaking of coal, the Senator from Scranton, PA, my 
hometown. Senator Casey.
    Senator Casey. Mr. Chairman, thank you very much. We're 
proud you're a native of my hometown.
    The Chairman. So am I.
    Senator Casey. Our hometown.
    Mr. Chairman, thank you for calling this hearing on this 
critically important issue.
    I have a statement, which I'd ask unanimous consent that 
that be entered into the record.
    The Chairman. It'll be placed in the record.
    Senator Casey. And I appreciate that.
    Senator Casey. And I also want to say how much I appreciate 
this panel, for your witness here today and the information 
you're giving us, Admiral, General, and Vice Admiral, for your 
contribution to our country long before you did work on this 
report, but especially today, as you inform and enlighten this 
debate.
    And I think, fortunately, the debate about global warming 
is beginning to--the debate about whether it exists, and who 
causes it, I think, is beginning to wind down, we hope, because 
what we should be focused on now is how we deal with it. And I 
think that's why your testimony today is so important to this. 
And I think Senator Kerry, in a few short minutes, did a great 
job of summarizing the data, the information, and the urgency 
of the challenge.
    And I think we all come at this from different vantage 
points, and we also come at this from--or, I should say, we 
arrive at conclusions about this subject based upon different 
types of information. I remember one moment that I'll never 
forget, just reading a magazine article, it became clear to me. 
It was a Time magazine story in 2006. I don't remember what 
month. But I remember reading something--it was very simple, 
but jarring and upsetting to me, and I'm sure other people read 
it--which basically said that the--since 1970, in just about 35 
years, the percent of the Earth's subject to drought had 
doubled. That's it. Just that one fact. And when I read that 
and thought about it later, it made perfect sense to me, as a 
nonscientist, to be able to realize what that meant, that, if 
the percent of the Earth's surface subjected to drought is 
doubling in just 35 years, the inescapable conclusion from that 
is that that leads to hunger and famine and darkness and death. 
That, alone, is a clarion call to get something done.
    What you do today, what you've done today, is to provide 
another level of urgency for this issue, because of our 
national security threat.
    So, I wanted to say that, by way of background. Also, I 
want to say that I appreciate the--Senator Hagel and Senator 
Durbin and others, who have introduced Senate bill 1018--and 
I'm a proud cosponsor of that--to make sure that we make this 
part of our intelligence estimate, as well as our national 
security debate.
    You pointed--all of you pointed to the examples now in 
Darfur and Nigeria, among others, and I won't try to summarize 
those. I want to move to a more--I guess, a more basic level, 
in terms of our national security, and that's readiness. We see 
this play out every day in the debate on Iraq. We saw it with 
the horrific footage from the State of Kansas, about our 
failure to have readiness, in terms of equipment, not to 
mention troops. We know the wear and tear on our equipment, we 
know about the extreme conditions, environmental and geographic 
conditions, that our military equipment will be subjected to. 
We know the impact on our--of global warming on our military 
bases.
    And I guess the fundamental question that I have to ask--
and I'm sorry to get to it so late--is, What--and I'll--if each 
of you have an opinion on this, or just one of you--What steps 
should we take, just on this fundamental question of readiness, 
when it comes to the global warming impact upon our national 
security? What are the basic steps we should take to prepare 
for that, and to mitigate what seem to be some terrible 
consequences that we're facing?
    [The prepared statement of Senator Casey follows:]


           Prepared Statement of Senator Robert P. Casey, Jr.

    Mr. Chairman, thank you for holding this timely hearing on the 
national security consequences of global climate change. The evidence 
is overwhelming--global warming exists. Temperatures are rising and the 
level of heat-trapping carbon dioxide in the atmosphere is increasing. 
Some people in Washington are still denying the existence of global 
warming despite a consensus among scientists from around the world that 
global warming exists and that the problem is caused by man. We can 
debate the best ways to solve the problem, but those who try to deny 
that there is a problem or who claim that global warming is not real 
are being dishonest with the American people.
    From sea to shining sea, America is a nation that has been blessed 
with incredible natural beauty and resources. And it should be America 
that takes the lead in fighting global warming. As today's hearing will 
amply demonstrate, a leading reason for taking action now is to 
mitigate the likely foreign policy and geopolitical impacts of global 
climate change. On a broad range of national security challenges--
containing refugee flows, preventing failed states, and ensuring our 
continued military readiness--global warming threatens to exacerbate 
current threats to our national interests.
    Global warming is also likely to enhance existing conflicts and sow 
the seeds for new battles. As our witnesses today cite in their report, 
Darfur offers an illuminating example. Long periods of drought turned 
grazing land into desert in Sudan. Nomads who previously relied on 
grazing lands migrated southward in search of water and herding ground, 
resulting in conflict with the farming tribes who already occupied that 
land. This competition for land turned violent and served as one of the 
factors to incite a full-fledged civil war in Darfur and the resulting 
government repression and acts of genocide. In the case of Darfur, 
climate change helped set off a deadly conflict. If we don't move to 
limit and mitigate climate change, we may see other Darfurs arise in 
other parts of the world.
    The report issued by the Center for Naval Analyses is an impressive 
start, but it is just that--a start. The potential national security 
consequences of climate change deserve further study. This is why I am 
so proud to be one of the first co-sponsors on S. 1018, a bill 
introduced by Senators Durbin and Hagel that would require the 
Intelligence Community to produce a National Intelligence Estimate on 
the anticipated geopolitical effects of global climate change and their 
resulting consequences for America's national security.
    I applaud our witnesses today for producing such a compelling and 
important report. For too long, we have viewed climate change solely as 
an environmental issue. It is time to recognize that climate change 
will directly affect our geopolitical interests around the world and 
hence treat the problem along the same ones that we do other threats to 
our national security.


    Senator Casey. Admiral, if we could start with you, or if 
others want to chime in on this.
    Admiral Prueher. The impact on readiness is not a subject 
that our panel directly looked at, of immediate military----
    Senator Casey. Right.
    Admiral Prueher [continuing]. Readiness. And I think the--
you know, the right answer for that comes from accountable and 
responsible commanders who have to do with it right now.
    The impacts of global warming on readiness, I will point 
out a couple. One, in--when Hurricane Ivan came through 
Pensacola, FL, it put the Air Station, the Logistics Station, 
the Education and Training Command--it put the Air Station out 
of business for a year. It just devastated that area. Low-lying 
area, intense storm.
    What we can see, if we look at long-term readiness--and 
this is not wear and tear on vehicles that are--is manifest to 
all of us--but on our facilities and our ability to project our 
Nation's--the military aspect of our Nation's power to places, 
if--Admiral Truly talked about Diego Garcia--those things will 
directly impact readiness in that it will render it much more 
difficult to do logistics solutions to problems, if we have 
bases that are taken out by increased storms, increased winds, 
lack of water, as we transition to new fuel uses, to 
hydrocarbons and things like that, to--away from hydrocarbons--
then I think that will all have a--put an increased strain--for 
example, if we take the trucks and the tanks and move them to 
hybrid vehicles, there will be a period where there'll be an 
increased strain on our ability to respond. And so, I think 
that'll have a direct impact on readiness. But, it is one that 
probably we need to do anyway.
    Senator Casey. Let me just quickly follow up with what you 
just said. Do you think that there are--there is anything, as 
far as you know, within our budgetary forecasting or in our 
programmatic prospective look at what we're doing with our 
military budgets and our programs--anything that you can see 
that is a series of steps, or moving in that direction, to 
prepare for that--in terms of moving bases or in terms of doing 
anything?
    Admiral Prueher. There are others that may know more about 
this, but not to my knowledge.
    Senator Casey. I know we're limited on time.
    General Wald. First of all, I agree with the Admiral, but 
I'd also add that I think--these are difficult problems, and 
serious people need to get serious solutions to big problems. 
One of the things that has to be faced is that this is not 
necessarily a zero-sum game on funding, or, actually, readiness 
either.
    And the way I look at it is, I don't think the conventional 
part of our requirement has necessarily gone away. It's a 
little more abstract to postulate who a real conventional 
threat is right now, but you can postulate it without too much 
trouble. But what's happened, I think, in the spectrum of 
conflict that we have to be ready for in the military has 
expanded.
    In a traditional sense, the military looks at threats in a 
spectrum of real low intensity all the way up to real high 
intensity, and the majority of our assets have been focused on 
the high-intensity part--high-tech equipment, et cetera. The 
new threat is at the low end of the spectrum, but it's expanded 
significantly. And to respond to the new threat takes some 
less--we still have high technology, but it's more of a 
personnel-type response. And as that grows, we're going to have 
to face the fact that we have full-spectrum threats that are 
fairly significant, from the standpoint of risk, at both ends. 
And so, I think this issue about, ``Do we have to expand the 
capability to respond?'' is probably a good one.
    Second, if you look at things like the tsunami that 
occurred, or the earthquakes in Pakistan, or earthquakes in 
Morocco, or Algeria, let's say, or the floods in Mozambique, 
those all required a military response, because of the 
magnitude of them. There was--there weren't any civilian 
organizations that could respond to those. Even Katrina, as was 
mentioned. And if the science says that that is going to happen 
more regularly, then militaries are going to be expected to 
respond more routinely.
    And so, it isn't--I don't think--I don't think it's a zero-
sum game. We can't say that the new world is now at the low end 
of the spectrum, and we'll shift all our funds toward that. And 
so, unfortunately, I think there are some budgetary decisions 
to be made, and we're going to have to face those in the 
future.
    Senator Casey. Thank you. I know I'm out of time.
    Thank you.
    The Chairman. Thank you very much.
    Senator Corker.
    Senator Corker. Mr. Chairman, thank you for what you and 
the ranking member have done to set up this hearing.
    And I want to say, in opening, that I asked to serve on 
this Foreign Relations Committee, and I asked to serve on the 
Energy Committee, because of the intertwining of those, and 
their importance to our country in the future. And this is the 
type of hearing that I think really, obviously puts an 
exclamation point that. And I want to thank you for this 
hearing.
    And I also want to follow up on a couple of comments that 
you have made talking about the military and the excellence 
that you've seen with men and women with stars on their 
shoulders and stripes on their sleeves. And I want to say that 
I have found the same thing.
    And, just as it relates to the bigger picture of foreign 
relations and this issue, I think, that we're dealing with 
today, my sense is that, for instance, in Iraq, if our 
expectations are not met over time, it will have absolutely 
nothing to do with our military, and everything to do with the 
civilian portions of our Government that I think have been 
underinvested in and their inabilities, if you will, to 
coordinate all kinds of other activities that need to occur. 
And I just hope that in this committee in the future, we will 
focus on that issue, which, to me, is one of the biggest issues 
we have to deal with in foreign relations.
    The other thing I would like to say to you is that--you 
mentioned clean coal technology--you know, and Senator Lugar 
talked a little bit about our leading the world in areas of 
technology would affect countries like China and India. And I 
want to say to you that it's been somewhat frustrating to me, 
on the Energy Committee, in that the perfect is the enemy of 
the good.
    We just had a renewable standards bill that came out, and 
clean coal technology was eliminated because there may be some 
carbon that comes from that. And I would just like to say to 
you that this bill will be coming forth soon. I hope that we 
can--the Foreign Relations Committee will see the benefits of 
that type of technology in China and India. And, while it may 
not be perfect, if you will, it is a technology that can help 
us, if you will, lead the world to do some things that do cause 
global warming to be less of a threat. I just appreciate the 
opportunity to say those.
    And I would like to ask the panel, and thank you for 
coming--I'm hearing--I appreciate what you've said, and I 
really appreciate your leadership on this issue. We've had 
people come in, talking to us about climate change. We've 
looked at the models. We realize that there's also a natural 
heating and cooling that takes place, and we know not exactly 
when those cycles are going to take place, and we understand 
that carbon still is adding to the warming, regardless of how 
those cycles are. One of the things I'm having a hard time 
getting a grasp of today--we talk about the future threats, and 
that's where we began, we're talking about some of the 
solutions, energy wise, now--but how urgent--how closely into 
the future are we talking about some of the things that you 
described actually occurring, in your estimation? I think, when 
we plan for the future--and I know you talked about--this was 
important, but not urgent--give me a sense, if you were trying 
to make a--judgments as it relates budgeting, as Senator Casey 
mentioned, or other issues--how close are the actual on-the-
ground threats that we need to be dealing with?
    Admiral Prueher. I'll start with that, and then get--ask my 
colleagues to add.
    When I said ``important and not urgent,'' I may have 
overstepped what I should have said, because the fact is, 
we're--one, we're not climate scientists, we don't--I don't 
know the answer to your question, I don't know how urgent it 
is. We are dealing with uncertainty. And what we--you know, we 
have some facts, we know trends, those are things we know for 
sure. We don't know the outcomes. And so, we deal with the 
projected range into the future, of outcomes. There are 
scientists that talk about tipping points, that you're--with 
which you're familiar. So, it may, in fact, be more urgent than 
we think.
    The idea of whether the--it's a point that Admiral Truly 
makes, that these things happen slowly. And so, we don't tend 
to--we don't tend to notice them. But the causes are already in 
place, and they already have momentum. We don't know the speed 
with which they'll accelerate with a certain added amount of 
carbon parts per million. So, we--those are things we don't 
actually know.
    So, given our experience in dealing with uncertainty in the 
military, and dealing with something that has such high 
potential risk, and we don't particularly know the answer, 
we're going to hedge. And so, we're going to start to do 
something now. And that's why I think we're here, is to ring 
the bell that now is the time for action, before it gets more 
adverse than it is now.
    Admiral Truly. I would concur. I think we're late already.
    One of the physical things that happens is, we have an 
entire Industrial Revolution's worth of gases already in that 
atmosphere, and they stay there, some of them, for centuries. 
And as we continue to add to this issue, we continue to build 
up risk. And in the military, we're used to dealing with 
uncertainty. As a matter of fact, I can't remember many 
decisions where you--where there was 100 percent certainty. But 
all the evidence is, is that we need to act and that we--and 
what we have recommended in the national security arena is to 
begin serious planning, from a national security perspective, 
at the very top, and that will--and if we do that--and I hope 
we're wrong--but if we do that, and the conclusion is, is that 
new equipment needs to be developed, and new interfaces need to 
be developed internationally, nobody does that better than the 
Department of Defense, but they do respond to leadership from 
the top.
    And so, I believe this issue is urgent. And not in the 
sense that the climate is going to declare war on the United 
States. It's not that kind of a problem. But it's a slowly 
building stress, and it is accelerating. And our conclusion is, 
is that it is time to fold this into the Nation's security 
planning, which is the national security strategy, the national 
defense strategy, the National Intelligence Estimate, and the 
Quadrennial Review that the DOD holds, in order to 
institutionalize it.
    So, I really think that the time is now.
    General Wald. Yeah, I'd echo both Admiral Truly and 
Prueher's comments and just say that--again, I mean, I don't--I 
don't try to tell you that I'm a scientist, but I'm smart 
enough to understand what people tell me. And we've all had our 
chances to read highly technical things in our careers, and 
with the expectation we understand them. And in listening to 
the people that are credible on this, and thoughtful, the 
concern is that if they're right--and, by the way, I have 
homeowner's insurance, because I think--you know, I'd hate to 
have my house burn down, but I think the chances of it burning 
down are about zero, but I still don't--I'm not going to take a 
chance.
    And when you start having people tell you that, within 10 
years, catastrophic things could happen, I don't think we have 
the right to take a chance with that for our Nation, and I 
think leadership in this country, in all branches of 
government, need to say, ``It's just--we just don't--we can't 
take the risk, and we need to do something.'' And it doesn't 
have to be extremely costly. There's an issue on the economy, 
no doubt about it. And there are those that argue the market 
will take care of itself on this, in this area. I don't think 
it will, and I don't think we can take the chance. So, I think 
what's been suggested in the report is something we should do 
today.
    Senator Corker. Thank you, Mr. Chairman.
    The Chairman. Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman.
    And I understand we probably have a vote at 11:30, but I 
wanted to take a few minutes this morning, first of all, to 
thank you for this very important hearing. I agree with what 
many of our colleagues have said this morning, in terms of the 
significance of this.
    Gentlemen, you have spoken with a level of urgency this 
morning that I do hope does not fall on deaf ears or just those 
that were able to attend here this morning. The message that 
you have to send is a very powerful one, and you're saying--
and, General Wald, I think you used the terms, you know, 
``We're done talking about it, it's time for action.'' We 
recognize, here in the Congress, that oftentimes we're going to 
talk a little bit longer, and a little bit longer, and then 
finally we get around to an action point. I think that the good 
news for us now is we have the luxury, if you will, of some 
planning time. We recognize that if we were to stop everything 
today, if we were to shut down every--everything that was 
emitting anything, we would still be dealing with the 
cumulative buildup that has been there for generations now, and 
we will deal with that. But we recognize that we have the 
ability to do some smart things now, before the train goes over 
the edge there. And so, I think it is important to be talking 
about how we integrate this, how we provide for the planning, 
and how we do things in a smart way.
    I'm a little frustrated--and I'm sure that you probably 
are, as well, though--when we talk about what we can do here in 
this Nation. We can be the lead on the technology side, we can 
be the lead from the political side, but we can't do this 
alone. We are one world, one planet, and what happens in China 
is going to affect us. In Alaska, we're seeing levels of 
pollution in my State, not because Alaskans are polluting, but 
because it's coming over the Pole from Europe, from Russia, and 
we see, firsthand, how that travels.
    The suggestion that what we need to do with countries like 
China and India, is to provide for this process of engagement. 
And I think it was you, Admiral, who suggested that we need to 
build this framework, working with China and other nations. Are 
we getting to them the level of urgency? Do you think that they 
appreciate that it's time to act now? Or do they view us as the 
nation that--we provide 25 percent of the pollution or the 
emissions into the air now--do they look at us and say, ``Well, 
yeah, it's fine for the United States to say that, because--you 
are the envy of all the nations, you have an economy that is 
strong and solid, and now you're telling us, a nation that is 
trying to provide economic opportunity for our people--you're 
telling us that you've got to put controls on--allow us the 
opportunity to come to the same level that you are, and then 
maybe we'll talk''? How far are we in truly being able to 
engage these other nations on these very significant issues?
    Start with you, Admiral. And particularly from the China 
perspective, considering your expertise----
    Admiral Prueher. Right.
    Senator Murkowski [continuing]. And your ties there.
    Admiral Prueher. The--increasingly, the Chinese are not 
monolithic, so there are segments in China that understand the 
hazards--the environmental hazards that we're talking about, 
and the pollution hazards, and the repercussions of increased 
carbon in the atmosphere.
    The leaders--and, as I mentioned before, their whole 
legitimacy comes from raising 200 million Chinese out of 
poverty, you know, since 1992; and they have, they're very 
proud of what they've done, and justifiably so. I don't think, 
overall, we get a lot of traction talking to the Chinese about 
this. Their overt reaction to us--and I don't want to try to 
put words in their mouth, either--but they--their overt 
reaction to us is, as you've pointed out, ``You've got yours, 
you're trying to suppress us by having this dialog.'' We have 
to be able, one, to get past that by providing a good example, 
where they can't point to things that we're doing that are--and 
then, at a, excuse me, ``glacial rate,'' probably move this 
dialog forward, where the--overall, the leadership there is--
sees this as a major issue. I think it will take time, and 
that's--because it'll take time, we need to start now, we need 
to work on it hard.
    Senator Murkowski. General Wald.
    General Wald. Well, I wouldn't argue with any of that. I 
would just say that--I have a little trouble with the argument 
that, ``If they don't do it, why should we do it?'' or--which 
was--sometimes boils down to. It's a little bit like Kyoto. I 
mean, I personally didn't think Kyoto was a very solid treaty, 
because of the China-India issue. That doesn't mean I don't 
think the United States should do something about it. I mean, I 
think, even though we're a global, interdependent world, and 
China is emerging as a huge issue for us, we still have 
individual interests, in the United States. And I think, as 
Admiral Prueher mentioned, it's going to be--it's going to be 
difficult. They want to get 600 million people out of poverty. 
Their Maslow's hierarchy does not include clean coal right now, 
it includes energy.
    So, it's not a simple answer, but I would think that the 
United States, regardless of what China does, should take 
action on this. But we also should show international 
leadership and try to engage with China. And I, also, would 
applaud what Secretary Paulson's doing. I think what he's doing 
is one of the most important foreign policy things for our 
country we could be doing today. Very complex, but it's not an 
either/or thing. And I'll end, again, by saying that, for 
anybody in the United States to say, ``Because China isn't 
doing it, we're not going to do it,'' is, to me, a--is pretty 
immature and a loser. So, we should take leadership. And I 
appreciate what you're doing on the energy side.
    Senator Murkowski. Well, and I want to bring up one last 
point, and that's in the area of the renewables that we're 
looking to. We had an opportunity, up in the State, a couple of 
years ago, at the Alaska Clean Energy Symposium, and there was 
a group there from the Army National Automotive Center, and 
they had different vehicles, whether it was a hybrid M-113 
armored personnel carrier, they had a hybrid electric Humvee, 
they had a Special Forces fuel cell ATV. I mean, they were 
moving forward with that transition, being very innovative, I 
would suggest.
    But we recognize that to get from where we are today to 
where we would like to be is absolutely a mammoth undertaking. 
It is a change in attitude, it is a change in just, really, 
vision about where this Nation goes, not only from an energy-
security perspective, but, as you gentlemen are saying here 
this morning, from a national security perspective. And we've 
got to make that change in attitude. And I think it is nothing 
short of a phenomenal effort that will be required to make that 
change. And in order to do it, you've got to start sooner than 
later.
    So, I appreciate the time that you've given us, and the 
time that you have spent, in your retirement years, really 
focusing on that next generation, in terms of how we provide 
security for this country, and all that you're doing. So, I 
thank you. Appreciate it.
    Admiral Truly. Mr. Chairman, could I make one----
    Senator Murkowski. I didn't mean to----
    Admiral Truly [continuing]. Very brief comment----
    Senator Murkowski [continuing]. Cut you off, Vice Admiral.
    Admiral Truly [continuing]. To that?
    I spent 8 years as Director of the Department of Energy's 
National Renewable Energy Laboratory, in Golden, and we had a 
number of projects--wind projects and--in Alaska. And we--and 
we have worked on the hybrid electric program with the DOD, and 
it is a massive job. It is a massive undertaking. And it's part 
of the portfolio of things that we need to be doing.
    But, from a security perspective, it really is important to 
fold all of these technologies into the mix. It's going to be a 
portfolio solution. Coal is going to be with us for a long 
time. So--and nuclear has its place, and renewables has its 
place, as well. But without having the leadership to take the 
actions we think we've provided in our recommendations--but 
others may have better ideas--but to do nothing, we think, is 
just a--not a moral stance that the United States should 
continue.
    Senator Murkowski. Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator.
    Gentlemen, thank you very much. With your permission, I'm 
sure we'll be calling on you again. We're not just going to 
hold this single hearing, here, and walk away from this 
subject.
    I happen to be of the school that--which will not surprise 
anybody--Senator Lugar--maybe I've been a legislator--we've 
been legislators for a long while here--one of my observations 
is, in order to get a nation to respond to what seems to be 
such a gigantic, all-encompassing, frightening, thoroughly 
destabilizing issue, is--when you talk about it--and we talk 
about it in the grand scheme of things--it just seems like you 
can't get your arms around it, it seems so big to average 
people it just seems almost beyond our ability to deal with it. 
And that old expression, you know, ``In the long run, we'll all 
be dead.'' You know, and people talk about the long run and 
setting goals.
    I, for one, agree with Senator Lugar, in that it seems to 
me we have to do some very concrete, specific things that 
have--not necessarily significant, but real--real benefits--
real, observable benefits. It's a little like the little bill 
the Senator and I introduced. We don't think it's going to, you 
know, change the energy picture, but if we mandate automobiles 
have to be sold with flex-fuel capability, if we mandate that--
new automobiles--if we mandate that gas stations, a certain 
number, have to pump flex fuel, biofuels, E85, if we mandate 
mileage increases, it just gives the public a sense that 
there's some something they can do.
    And so, I'm of the view--we may come back to you later--I'm 
of the view that a President has to change the mindset--the 
mindset of a country, and begin to change the mindset of a 
world. I mean, we are--you know, we're a gigantic consumer.
    And if it's within the power--if it's doable that in the 
next couple of years we could mandate all Government fleets, I 
promise you, every State would follow suit, without any--
without any legislation. If, tomorrow, the Federal Government 
were to mandate these fuel economies, and--for vehicles they 
purchase--I promise you--you add up 50 States, plus the Federal 
Government, every single thing they purchase, every vehicle 
they purchase, that begins to have an impact.
    And so, I think that's quite--and this is my--the point I'm 
trying to get to here is that I think it--I think the most 
valuable part of your testimony--and I'd respectfully suggest, 
the more you talk about it--because you're not just going to be 
talking to us, this is something that you are--you guys are 
going go become disciples here of what you all--I hope you 
are--I mean, literally, not figuratively--a little like the 9/
11 Commission.
    The 9/11 Commission did not cease and desist when we 
stopped paying for their organizational ability. And the more 
examples, I'd respectfully suggest, you can give that are bite-
sized and concrete as to what the probable downsides of failing 
to deal with this are, the more people associate with it. It's 
one of the reasons I believe that Al Gore did such a service 
with his film. You can argue about the film, and some people 
argue it was exaggerated--I don't think it was--but there were 
specific examples, people see things, they actually see ice 
caps melting and collapsing into the sea. It's a big deal. You 
guys talk about--you, Admiral Truly, you talk about low-lying 
countries, just a rise of literally a foot, or less--inches--
how it could have genuine fundamental consequences for 
population shifts.
    So, I would--you know, I know you all say you're not 
politicians, but I've never met a successful military man who 
can negotiate the Pentagon that isn't a pretty darn good 
bureaucrat and politician--and a politician in the best sense 
of the word--being able to get ideas through a very complicated 
organization. And to the extent that you all are able to, as 
you--you and your colleagues--I think, in a--literally, in 
appendices to your report, just giving 20 concrete examples of 
what the most likely outcomes would be that affect--that 
average people could look at and say--and average people 
include our colleagues, you know, the Congress, the Senate, 
us--would be, I think, a very, very helpful--a very helpful 
mechanism. And it also gives the press, who is an ally in 
this--I mean, we need the press to be communicating this idea, 
this concern--and it gives them something to show, it gives 
them something to talk about. And--but I do think there is a--
it's not just the climate that's changing, I think the attitude 
is changing a bit here; and so, if we can speed up the sense of 
urgency, we may actually earn our salary.
    So, did you have any comment, Dick?
    Senator Lugar. Well, thank you, Mr. Chairman, just one 
short comment.
    I agree with you, this panel this morning has been so 
important for our understanding, and hopefully for many 
Americans who have read your report, listened to you in 
testimony. But I think, reciprocally, that I would say that the 
panel that you're addressing the Foreign Relations Committee, 
does have, as I suggested, a number of people who are running 
for President. If we're talking about the dialog we need to 
have, and maybe in this room for a while, so that people are 
emboldened to make the kinds of comments in our national 
debate. Because the things we're talking about now will not 
occur--and I think Admiral Truly is correct--it's that 
portfolio. It's a whole mass of things that the Department of 
Defense can do, and all the rest of the Departments and the 
State governments, the people that we work with. And, in my own 
judgment, it will not happen without there being a 
comprehensive leadership package.
    Now, even then, that leadership may find the going is tough 
through the legislative process, through the administrative 
process, through the bureaucracy that we all inherit. But 
without there being that kind of very large charge at the top, 
no one--the Chinese, the Indians, the rest--will be impressed, 
and we have the sort of difficulties you express.
    So, thank you very much for your good counsel, and I would 
agree with the chairman, we look forward to your return.
    The Chairman. If you'd excuse the reference to a parochial 
issue--in my home State, I was showing the Senator, on the 
front page of our State's largest newspaper, there is a quote, 
saying, ``The PSC''--the Public Service Commission that's--
controls utilities--``endorses offshore wind farm with gas 
backup for Delmarva''--the Delmarva Peninsula, as it. And it 
goes on to talk about how the energy companies, Delmarva Power 
Company, said, ``We're not going to be part of this, we're not 
going to provide any backup for this. We understand--you guys 
want to go out and build these''--I'm paraphrasing--``build 
these windmills, you can go tilt at them. And we all know 
they're not going to work very much--very well, unless there's 
a backup on those days the wind's not blowing.'' But, guess 
what? The Public Service Commission--fairly conservative 
outfit--unanimously said, ``We're going to build them.'' In 2 
days, the largest power company in the State said, ``Well, you 
know, maybe we will. Maybe we will provide that backup.''
    I think that's kind of what we're talking about here. And 
hopefully you are the catalyst of some of that change.
    I thank you very much, gentlemen.
    The hearing is adjourned.
    [Whereupon, at 11:48 a.m., the hearing was adjourned.]


                              ----------                              


          Statement Submitted for the Record by Senator Obama

    I thank each of you for coming here today to highlight the 
relationship between national security, energy security, and climate 
change. And I thank Chairman Biden for holding this hearing.
    Our Nation's Achilles heel is our addiction to oil. We fuel our 
needs by sending $800 million a day to some of the most volatile 
regions in the world. But our addiction to oil also threatens our 
planet. Admiral Truly, in the report recently released by the Military 
Advisory Board, talks poetically about how, as an astronaut, he was 
able to see our planet as few have. He said that while orbiting the 
earth ``you look at the earth's horizon, you see an incredibly 
beautiful, but very, very thin line .  .  . That thin line is our 
atmosphere. And the real fragility of our atmosphere is that there's so 
little of it.''
    We need to protect the atmosphere, just as we protect what lies 
below it. We need to have both a comprehensive policy that leads to 
energy independence, and a policy to cope with climate change. Because 
the implications of climate change go far beyond the environmental 
devastation--the loss of the polar ice caps, the number of plants and 
wildlife being endangered each year. As the report of the Military 
Advisory Board concludes, climate change has serious implications for 
our national security. By increasing the likelihood of extreme weather, 
such as flood and droughts, climate change can lead to massive 
migrations, increased border tensions, and greater disputes over water 
and food. These byproducts of climate change will necessitate greater 
relief and evacuation efforts by the U.S. military, but they also fuel 
the kind of desperation that leads to extremism and terrorism. Rising 
sea levels could also threaten military bases currently located on our 
coasts.
    As we look to rebuild a military already stretched to its limits as 
a result of the war in Iraq, we need to consider the wide array of 
challenges that our troops will face. Climate change is a very real 
problem that our military planners much take into account.

                                 <all>

      

</pre></body></html>
